<html>
<title> - U.S. AIR INTERDICTION EFFORTS IN SOUTH AMERICA AFTER THE PERU INCIDENT</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 U.S. AIR INTERDICTION EFFORTS IN SOUTH AMERICA AFTER THE PERU INCIDENT
=======================================================================



                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                              MAY 1, 2001
                               __________

                           Serial No. 107-61
                               __________

       Printed for the use of the Committee on Government Reform








  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                    U.S. GOVERNMENT PRINTING OFFICE
78-829                       WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               ------ ------
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                      Chris Donesa, Staff Director
                Roland Foster, Professional Staff Member
                          Conn Carroll, Clerk
           Denise Wilson, Minority Professional Staff Member














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 1, 2001......................................     1
Statement of:
    Brown, Bob, Acting Deputy Director for Supply Reduction, 
      Office of National Drug Control Policy; Donnie R. Marshall, 
      Administrator, Drug Enforcement Administration; Chuck 
      Winwood, Acting Commissioner, U.S. Customs Service; John M. 
      Crow, Director, Latin American and Caribbean Programs, 
      Bureau of International Narcotics and Law Enforcement 
      Affairs, Department of State; and Rear Admiral David Belz, 
      U.S. Coast Guard, Director, Joint Interagency Task Force 
      East.......................................................    43
    Hoekstra, Hon. Pete, a Representative in Congress from the 
      State of Michigan..........................................    21
    Isacson, Adam, Center for International Policy; Pete West, 
      National Business Aviation Association; and Andy Messing, 
      National Defense Council Foundation........................   102
    Weldon, Hon. Curt, a Representative in Congress from the 
      State of Pennsylvania......................................    33
Letters, statements, etc., submitted for the record by:
    Belz, Rear Admiral David, U.S. Coast Guard, Director, Joint 
      Interagency Task Force East, prepared statement of.........    73
    Brown, Bob, Acting Deputy Director for Supply Reduction, 
      Office of National Drug Control Policy, prepared statement 
      of.........................................................    46
    Crow, John M., Director, Latin American and Caribbean 
      Programs, Bureau of International Narcotics and Law 
      Enforcement Affairs, Department of State, prepared 
      statement of...............................................    69
    Davis, Hon. Jo Ann, a Representative in Congress from the 
      State of Virginia, prepared statement of...................    20
    Hoekstra, Hon. Pete, a Representative in Congress from the 
      State of Michigan, articles dated May 1, 2001 and April 29, 
      2001.......................................................    24
    Isacson, Adam, Center for International Policy, prepared 
      statement of...............................................   106
    Marshall, Donnie R., Administrator, Drug Enforcement 
      Administration, prepared statement of......................    58
    Messing, Andy, National Defense Council Foundation, prepared 
      statement of...............................................   119
    Platts, Hon. Todd Russell, a Representative in Congress from 
      the State of Pennsylvania, prepared statement of...........    38
    Schakowsky, Hon. Janice D., a Representative in Congress from 
      the State of Illinois, prepared statement of...............    16
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana:
        H. Res. 452..............................................   124
        Prepared statement of....................................     5
    West, Pete, National Business Aviation Association, prepared 
      statement of...............................................   114
    Winwood, Chuck, Acting Commissioner, U.S. Customs Service, 
      prepared statement of......................................    65













 U.S. AIR INTERDICTION EFFORTS IN SOUTH AMERICA AFTER THE PERU INCIDENT

                              ----------                              


                          TUESDAY, MAY 1, 2001

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:30 p.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Burton, Mica, Jo Ann Davis 
of Virginia, Platts, Cummings, and Schakowsky.
    Staff present: Chris Donesa, staff director; Sharon 
Pinkerton, chief counsel; Charley Diaz, congressional fellow; 
Roland Foster, professional staff member; Conn Carroll, clerk; 
Tony Haywood, minority counsel; Denise Wilson, minority 
professional staff member; and Lorran Garrison, minority staff 
assistant.
    Mr. Souder. The Subcommittee on Criminal Justice, Drug 
Policy and Human Resources is called to order. Thank you all 
for coming this afternoon. Just a little over a week ago, a 
terrible tragedy occurred that broke the heart of every 
American when, through a preventable mistake, a missionary, 
whose life had been committed to serving others on behalf of 
God, was killed along with her little girl. The innocent pilot 
was also wounded.
    God's grace is flowing over her husband and son. Roni and 
Charity Bowers now wait to be united in a much happier place. 
God's promise is that all things work together for those who 
live the Lord. The entire Nation has been able to hear of the 
tremendous faith and confidence of this family.
    But, from a public policy standpoint, where is the U.S. 
Government to head? What will the U.S.' antidrug efforts in 
South America be after the Peru incident? The errors in this 
particular case already seem pretty clear. An investigative 
team is in Peru today, headed by Randy Beers of the State 
Department, to verify the facts and propose solutions. We are 
looking forward to a speedy presentation to Congress and the 
general public of those findings.
    The shoot-down policy support by the U.S. Government was 
proposed by President Clinton in 1994. It passed the Democrat-
controlled House and the Democrat-controlled Senate in 1994. 
Though this was a Clinton initiative supported by a totally 
controlled Democratic Congress, Republicans generally supported 
President Clinton's policy as well. This policy was not a 
partisan policy then, nor should it be now. President Clinton 
stated that the Peruvian Government had adequate checks in 
place to assure that a tragedy such as this would not occur.
    In President Clinton's statement to Congress he included, 
``The use of weapons against any such aircraft in flight by the 
Peruvian Air Force may be authorized under very strict 
conditions after all attempts to identify innocent aircraft and 
to persuade the suspect aircraft to land at a controlled 
airfield had been exhausted.'' Guidelines also specified 
requirements on flight plans, multiple radio contacts, visual 
contact, confirmation of the aircraft's identification and 
registry, and the firing of warning shots first. Clearly, these 
guidelines were not followed.
    Some will try to maintain that it was inevitable that such 
an incident would occur. I disagree. It is not inevitable that 
in one flight there would be a mix-up of flight plans, language 
problems, failure to identify tail numbers, failure to make 
radio contact, failure to fire warning shots, or at least make 
them aware of such an effort.
    On top of that, the plane was headed toward the airfield in 
Iquitos where, according to guidelines, the force-down should 
have occurred. The plane was not using evasive techniques and 
was headed away from the Colombian border where it was not in 
danger of escaping. Any plan that can allow this many errors 
has a design flaw. At a bare minimum, not enough double-checks 
and training.
    After the Exxon Valdez oil spill in Alaska, many actions 
were taken to avoid another oil spill, such as adding a second 
pilot, having tug escorts, and having spill teams ready to 
contain another accident, to name just a few. But around the 
world, we have not just given up and said, no more oil. We will 
work to avoid a repeat.
    But this is certain. This policy will never be reinstalled 
unless President Bush, Secretary Powell, Congress and, 
ultimately, the American people, believe that such a tragedy as 
this is not likely to be repeated because new safeguards have 
not been added.
    At today's hearing, we will first hear from Congressman 
Pete Hoekstra of Michigan who represents Muskegon, MI, the 
hometown of the Bowers family, and Congressman Curt Weldon of 
Pennsylvania, who represents the injured pilot, Kevin 
Donaldson. On the third panel we will hear from several groups 
opposed to this policy and one who favors it. The second panel 
will discuss the larger question: can the drug war in South 
America be successful? Did this shoot-down policy have any 
impact on reducing drugs? What is likely to happen without such 
a policy in place? What other efforts can be undertaken to 
reduce the flow of illegal drugs into our home towns?
    It is important to note to all of the members, those in 
attendance and those watching, none of the agencies in 
attendance today were part of the tragic mistake in any way. 
DEA, Customs, ONDCP, the Department of State and JIATF East 
were not involved. The CIA was invited to testify today. They 
chose not to attend.
    I, as chairman of this subcommittee, in fact, have received 
repeated requests not to hold today's hearing, but I strongly 
believe that this policy should not just be debated behind 
closed doors. Information should not just come from selected 
leaks to favored media outlets.
    Unfortunately, many people in America are becoming 
convinced, falsely, that the war on drugs has not worked. 
Secret hearings, hoping this will blow over, will not help the 
American people understand the difficulty of fighting illegal 
drugs. They have been swayed by Hollywood screenwriters more 
than facts. They have been influenced more by propaganda from a 
few rich drug legalizers than by the hard work of thousands of 
dedicated law enforcement officers, anti-drug counselors, 
teachers and parents who have rescued the lives of tens of 
thousands of Americans.
    Many Americans also do not understand the tremendous 
sacrifices the people of Peru as well as Colombia, Bolivia, 
Ecuador and others have made in trying to solve America's and 
Europe's drug problem. We need to thank them for their efforts 
more often. Only through open discussions to the degree 
possible of our actions can we build popular support for these 
needed programs. A common view, one perhaps some will make 
today, is that the solution is to drop interdiction and 
concentrate solely on demand reduction. Obviously, demand 
reduction is a key component of any antidrug strategy. No 
effort can possibly succeed without prevention and treatment 
programs.
    The Federal Government already spends far more on 
prevention and treatment than interdiction. Local and State 
governments, of course, spend nothing on interdiction, but 
millions more on prevention and treatment, but it is still not 
enough.
    This week in the Education Committee we will be 
reauthorizing the Safe and Drug-Free Schools Act. For 2 years, 
I and others have been working on legislation to make this 
program more effective. Over the last few years, I have been a 
lead sponsor on the Drug-Free Workplace bill, the Drug-Free 
Communities Act, and an advocate for increased funding for drug 
courts. I support legislation to expand drug treatment 
coverage. My legislation to hold students who receive student 
loans accountable if they get convicted of a drug crime has 
been in the news lately. One of the charges I constantly hear 
in south and central America is that we don't do enough here in 
America, especially from students who studied on U.S. college 
campuses.
    But I have noticed something interesting in the 6 years I 
have been in Congress. Many critics of drug interdiction 
programs also don't seem to be advocates of tough prevention 
programs either. No drug testing, no losing of any benefits, no 
clear anti-drug message; after all, marijuana may be medicinal.
    We are either serious about the war on drugs or we are not. 
Over 200,000 Americans have died from the effects of illegal 
drugs, and 34,000 were killed in Korea and 47,000 in battle in 
Vietnam. Are we serious about the drug war or not?
    What is the alternative of those who oppose the war on 
drugs? Having more weed-wacked, meth-wasted, heroin-junkie 
crackheads driving a car headed in your direction or prowling 
your neighborhood or, perhaps even more painfully, coming home 
to beat you or our child?
    The facts are simple. When this country focuses on the war 
on drugs, we make progress. The witnesses here today from the 
various agencies will make that clear. What we lack is a steady 
commitment.
    Drugs, like other dirty crimes, good and decent people 
don't like to think about, like child abuse, spouse abuse, 
rape, will never be eliminated. Sin will always exist, but we 
can never just abandon a battered spouse or child. We must do 
what we can to spare as many as possible the agony and the 
pain. We may not eliminate our social ills, but with 
dedication, they can, in fact, be controlled.
    I now yield to the distinguished ranking member, Mr. 
Cummings of Maryland.
    [The prepared statement of Hon. Mark E. Souder follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.001
    
    [GRAPHIC] [TIFF OMITTED] T8829.002
    
    [GRAPHIC] [TIFF OMITTED] T8829.003
    
    [GRAPHIC] [TIFF OMITTED] T8829.004
    
    [GRAPHIC] [TIFF OMITTED] T8829.005
    
    Mr. Cummings. Thank you very much, Mr. Chairman. I first 
want to welcome my colleague and friend, Representative Janice 
Schakowsky of Illinois to our committee.
    Mr. Chairman, we are all deeply saddened and concerned by 
the tragic incident in Peru that claimed the innocent life of 
Roni and Charity Bowers and seriously injured pilot Kevin 
Donaldson. My serious condolences go out to the families and 
loved ones of the deceased. Our thoughts and prayers go out to 
John and Cory Bowers who survived the air assault relatively 
unharmed thanks to the heroic flying and water landing managed 
by Mr. Donaldson.
    I think it is safe to say that there is one thing that 
unites all of the members of this panel: ensuring that what 
happened on April 21st never happens again.
    As the ranking member of this subcommittee, it is critical 
that we ascertain all the facts surrounding this incident. I am 
happy to hear that the Bush administration has dispatched an 
interagency investigative team to Lima, Peru to learn the truth 
in the various conflicting claims and reports. I hope that we 
will soon have an accurate, definitive account of what 
happened.
    What seems clear based upon what we know is that no one 
involved desired this tragic result; namely, the taking of 
innocent American lives. What also seems clear, though, is that 
the incident was avoidable. Clearly, the danger to innocent 
lives was contemplated when Congress and President Clinton 
decided to go along with the shoot-down policy adopted by Peru 
in 1994. Obviously, somewhere along the way, procedural 
safeguards broke down in this case.
    The Washington Post has characterized as meticulous Peru's 
adherence to these procedures for intercepting suspect aircraft 
under the 1995 U.S.-Peru Air Surveillance and Information-
Sharing Agreement. But the record has not been perfect. In 
1997, the Peruvian Air Force deviated from the procedures when 
it shot down a suspect plane without warning or contact. 
Because the lives taken in that incident turned out to be those 
of South American drug smugglers, the target of the shoot-down 
policy, there was not a controversy that surrounds the recent 
incident.
    Nevertheless, in the wake of the 1997 shoot-down, the U.S. 
Government took steps to ensure that all Peruvian officials 
involved in the air interdiction program became well versed in 
the procedures. Clearly, another refresher course may be in 
order. But is that all?
    Mr. Chairman, this incident opens up a range of questions 
relating to our air interdiction efforts, including the nuts 
and bolts questions about the cooperation, communication and 
accountability between and among the various United States and 
Peruvian agencies involved. I hope my colleagues and the 
administration will also take this occasion to consider the 
broader questions of accountability and due process that are 
inherent in a program that makes the United States complicit in 
a policy that permits, indeed promotes, the killing of 
individuals merely suspected of drug smuggling.
    Due process is at the heart of the notion of human rights, 
embodied in the American justice system, a system that we hold 
up as a model to developing democracies and aspiring democratic 
movements around the globe. The Peruvian shoot-down policy 
would never be permitted as a domestic U.S. policy precisely 
because it goes against one of our most sacred, due process 
principles; namely, that all persons are presumed innocent 
until proven guilty.
    The same due process ideal informs international law 
prohibiting the shooting down of any civilian aircraft not 
engaged in military attack. Under the U.S.-endorsed shoot-down 
policy, civilian pilots and passengers in foreign lands are 
excepted from that fundamental protection. Guilt or innocence 
is determined by military pilots who also man the firing line. 
As the recent incident demonstrates, there is a real danger to 
all civilian air travelers in areas where the shoot-down policy 
is in effect.
    As for accountability, news reports suggest that the 1995 
U.S.-Peru agreement was designed to avoid U.S. accountability. 
The agreement is intentionally silent on the question of 
whether U.S. officials have decisionmaking authority in shoot-
down scenarios. Because as one official was quoted as saying, 
``We didn't want to assume responsibility when somebody made a 
decision to shoot down an airplane.''
    According to at least one article, a Defense Department 
spokesman immediately distanced the Department from the 
controversy. The DOD spokesman vigorously noted that, in this 
case, the U.S. surveillance plane was not a Defense Department 
asset. DOD, Customs Service, and other U.S. Government assets 
are nevertheless readily employed in South America air 
interdiction program. As our colleague and newest subcommittee 
member, Congresswoman Janice Schakowsky, stressed in an April 
24 letter to you, Mr. Chairman, the CIA's use of private 
contract employees, including in this case, further clouds the 
accountability issue, perhaps by design. All of this begs the 
important question: just where does the buck stop?
    Mr. Chairman, few, if any, are more aware than I am of the 
immense and tragic toll that illicit drugs take on innocent 
American lives in communities across this Nation. Certainly 
Roni and Charity Bowers are not the first innocent victims of 
the war on drugs. It is a policy that also sacrifices core 
American values, a prudent and acceptable course to follow.
    Unfortunately, we will not hear from the CIA today, but I 
look forward to hearing the testimony of all of our witnesses 
who will appear before us today. I thank the chairman for 
allowing my request to hear from Pete West of the National 
Business Aviation Association and Adam Isacson of the Center 
for International Policy, who will appear on panel 3, and Phil 
Boyer of the Aircraft Owners and Pilots Association, who has 
submitted a statement for the record.
    I agree with you, Mr. Chairman. We should have hearings in 
the open so that the public can fully understand and fully 
appreciate what all of us go through in all of our--those 
people fighting this war on drugs go through and sacrifice. 
With that, Mr. Chairman, I thank you.
    Mr. Souder. I thank you.
    Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. I thank you for holding 
this open affair and probing hearing. I think it is important 
that this particular issue be aired before the Congress and 
before this subcommittee with jurisdiction.
    The innocent death of a mother and a baby is almost 
impossible to comprehend. Our hearts, our sympathy go out to 
the Bowers family. Unfortunately, we are engaged in a silent 
war in which there are tens of thousands, even millions of 
victims across the United States and across the world. I think 
today, as a result of this hearing, it would be horrible to 
compound one great tragedy and a loss to a family by developing 
policies that would create an even greater tragedy.
    It is very difficult to get a handle on the illegal 
narcotics problem. I have worked with the chairman, the current 
chairman; I served as chairman of this subcommittee, I have 
worked with Mr. Cummings and others, and I think we have well-
intended people. Mr. Cummings told you the result of illegal 
narcotics in his district, where there were over 300 people 
dying per year last year. Through his intervention, we have it 
under 300 for the first time.
    But just to comprehend the scope of this problem, over 
60,000 Americans lost their lives last year, or in the last 
recorded year, 1999, to drug-related deaths, overdose and other 
deaths. For the first time in the history of this Nation, those 
deaths exceeded homicides, and then if we include homicides, 
probably half of the homicides were drug-related. The question 
is, what do we do? Do we continue this policy of information-
sharing?
    I think it was applied by our responsible agencies and 
individuals in a responsible fashion, as we intended the law. 
Has it had an effect? Yes, it has had an effect. Since 1995, in 
Peru, cocaine production is down 68 percent since 1995, and 
Bolivia production is down 82 percent. I visited Peru, and I 
know others on this panel have, too, when it was in turmoil, 
when there was disruption when terrorist activities were being 
financed by drug activities. It has been difficult to bring 
that under control, but the Peruvians have done their best. I 
think that we have to learn from this tragedy. We have to find 
out what went wrong, institute further safeguards, make certain 
that it does not happen again.
    What is at fault here we must remember are people who are 
dealing in death and destruction and illegal narcotics, drug 
dealers, and that is what we should be targeting, our best way 
to go after these people. I strongly advocate continuing this 
information-sharing program. I strongly support the Peruvians 
in their antinarcotics efforts. I also strongly support 
inclusion of safeguards to make certain that we do not have 
another tragedy like this, but we also prevent the tragedies 
that occur to the extent of having three Columbines a day in 
this country with our young people.
    So Mr. Chairman, again, I thank you, and I hope that this 
can be a productive meeting and result in positive changes.
    Mr. Souder. Thank you. I now yield to Congresswoman 
Schakowsky for an opening statement.
    Ms. Schakowsky. Thank you, Mr. Chairman. I am really 
pleased to be at least considered for membership on this 
subcommittee, once again. I ask unanimous consent to revise and 
extend my remarks and to enter into the record questions for 
witnesses and other materials.
    Mr. Souder. I am going to do a procedural matter where we 
allow all written statements, but unless there is objection, so 
ordered.
    Ms. Schakowsky. Thank you. I am pleased that the 
subcommittee has convened today to hear testimony on the U.S. 
policy of intelligence-sharing and participation in air 
interdiction operations in South America. I am sorry that it 
has taken the loss of two innocent U.S. civilians, and possibly 
others, to raise the visibility of this questionable policy.
    In March, when the subcommittee heard testimony on U.S. 
policy toward Colombia, I raised several questions and concerns 
about the use of private contractors by the United States in 
the Andean region. I said, the privatization of our military 
and police assistance raises important oversight questions as 
we get drawn deeper into Colombia's civil war. The most obvious 
question is, why do we need to outsource and privatize our 
efforts? The American taxpayers already pay $300 billion per 
year to fund the world's most powerful military.
    Why should they have to pay a second time in order to 
privatize our operations? Are we outsourcing in order to avoid 
public scrutiny, controversy or embarrassment? Is it to hide 
body bags from the media and thus shield them from public 
opinion? Or is it to provide deniability because these private 
contractors are not covered by the same rules as active duty 
U.S. persons? How is the public to know what their tax dollars 
are being used for? Is there a potential for a privatized Gulf 
of Tonkin incident? The American people deserve to have a full 
and open debate before this policy goes any further.
    That is what I said in March. Since then, I have introduced 
H.R. 1591, legislation that would prohibit U.S. funds from 
being used to contract with private military companies in the 
Andean region.
    The U.S. taxpayers are unwittingly funding a private war 
with private soldiers. This is a shoot-first-and-ask-questions-
later policy encouraged by the United States in its war on 
drugs. Shooting down unarmed civilian aircraft, even those 
thought to be carrying drugs, is contrary to fundamental U.S. 
law enforcement policy. I don't think that any of my colleagues 
would support U.S. law enforcement officials in this country 
shooting down planes or blowing up vans based simply on the 
suspicion, or even the conviction that drugs are present. We 
believe in due process which should be no less respected in 
other countries than it is in our own.
    The kind of action we saw in Peru last week amounts to an 
extrajudicial killing, and we in this country now have innocent 
blood on our hands because of it. Those are the facts, and they 
were proven on April 20th, the day the actions of the CIA 
contractors resulted in the death of Veronica and Charity 
Bowers.
    This is what the American public is reading about this 
failed policy. In the Miami Herald it said, Peru's Air Force, 
with U.S. assistance, committed an unforgivable error. In the 
wake of last week's shooting, the Bush administration should 
reconsider the merits of the interdiction effort. In the 
Chicago Tribune where I am from: Given U.S.-led 
counternarcotics strategies in the region since 1994, this 
tragedy was bound to happen. Wherever the culpability lies in 
this incident, the larger issue is whether the U.S. strategy to 
use military interdiction in Peru, Colombia and other Andean 
nations, while demand for cocaine still flourishes in America, 
amounts to a fool's errand. The Peru incident should set off 
alarms in the Bush administration about what could happen in 
Colombia as the United States becomes more involved. This is an 
opportunity to rethink the whole strategy.
    The Atlanta Journal Constitution said in their headline, 
deaths in Peru symbolize danger, futility of drug war. The Bush 
administration acted quickly, it says, to freeze antidrug 
surveillance flights in Peru, but President Bush should have 
taken the opportunity to ask for a broad review of the longtime 
Washington policy of assisting drug interdiction in foreign 
policies. Can anyone point to data that shows that shooting 
down planes over Peru has done anything to stop even one addict 
in this country from using drugs? This is a war we cannot win.
    Finally, the Chicago Sun Times said, their headline was, 
``Only Losers in the War That We Can't Win.'' They say, ``the 
Bowers are just one example of how the U.S. war on drugs, as 
virtuous as its intent may be, has had consequences serious 
enough to call into question our ineffective approach to 
America's appetite for illegal substances.''
    We are here today to reevaluate our policy, to try to pick 
up the pieces and move on. I know some of those with us today 
would like to put this tragedy behind us and get back to the 
business of the drug war. However, there are so many 
questionable aspects of our policy and so many unanswered 
questions. Why do we have to hire private contractors to do our 
work in Andean countries? How much of the public's money has 
been spent to hire what some have referred to as mercenaries? 
Where is the accountability? Who exactly are they? Do they even 
speak Spanish? From what I do know, outsourcing in the Andean 
region is a way to avoid congressional oversight and public 
scrutiny. The use of private military contractors risks drawing 
into regional conflicts and civil war. It is clear to me that 
this practice must stop.
    I realize that there are those who are willing to risk 
another incident like this, but I am not. We have spent 
billions of taxpayer dollars, employed personnel from numerous 
agencies around the world, and the drugs continue to flow into 
the United States. Are the Bowers acceptable collateral damage 
in this war on drugs?
    We need a new approach. I agree with Secretary of Defense 
Don Rumsfeld when he said, ``I am one who believes that the 
drug problem is probably overwhelmingly a demand problem, and 
that it is going to find, if the demand persists, it is going 
to find ways to get what it wants, and if it isn't from 
Colombia, it will be from somebody else.''
    The administration should rethink its budget request for 
the Andean region, but immediately we should go beyond the 
suspension of surveillance flights in Peru and to suspend all 
U.S. contracts with private military firms in the Andean 
region. The audio and videotapes and other materials related to 
this and other shoot-downs in the Andean region should also be 
shared with the Congress and the public.
    Finally, the Bush administration's proposed nomination of 
John Walters as the next drug czar raises troubling 
implications for the future of this tragic policy. An outspoken 
advocate of the shoot-down policy, he has even been criticized 
by General Barry MacCaffrey on Meet the Press for being too 
focused on interdiction. That was a quote.
    I want to thank and welcome our distinguished witnesses for 
being here today, and I look forward to their testimony.
    [The prepared statement of Hon. Janice D. Schakowsky 
follows:]
[GRAPHIC] [TIFF OMITTED] T8829.006

[GRAPHIC] [TIFF OMITTED] T8829.007

[GRAPHIC] [TIFF OMITTED] T8829.008

    Mr. Souder. Congresswoman Davis.
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Chairman. I 
would just like to say thank you for calling this hearing, and 
I thank the panelists and witnesses for coming. I do have a 
written statement I would like entered into the record.
    [The prepared statement of Hon. Jo Ann Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.009
    
    Mr. Souder. I thank the gentlewoman.
    Congressman Ose was here earlier. He has been down with us 
to South and Central America, and we will have a number of 
Members coming in and out today as we are coming back into 
session later this afternoon.
    Before proceeding I would like to take care of some 
procedural matters. First, I ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record and that any answers to 
written questions provided by the witnesses also be included 
into record.
    Without objection, it is so ordered.
    Second, I ask unanimous consent that the gentleman from 
Pennsylvania, Mr. Platts and the gentlewoman from Illinois, Ms. 
Schakowsky who are both members of the full committee, be 
permitted to participate in the hearing and to question 
witnesses under the 5 minute rule in each round after all of 
the members of the subcommittee have completed their 
questioning.
    As you have heard, Ms. Schakowsky has been added to the 
committee, but it hasn't been cleared through, but it will be 
in our next full meeting. Without objection, it is so ordered.
    We will now begin with our first panel who is made up of 
both Members of Congress, both long-time friends of mine whose 
constituents were involved in the incident of Peru. We welcome 
both of you. It is standard practice of our subcommittee to do 
a swearing in. We do not do it for Members of Congress because 
when we take the oath of office, that is the same as we do for 
witnesses here.
    So Congressman Hoekstra, you are now recognized.

 STATEMENT OF HON. PETE HOEKSTRA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Hoekstra. Thank you, Mr. Chairman and members of the 
committee, for inviting me to testify this afternoon. As many 
of you now realize, the Bowers family was from Muskegon, MI, in 
my congressional district. Over the past several days I have 
been deeply involved in this matter. I appreciate this 
opportunity to speak publicly about the impact of the downing 
of that missionary plane in Peru. I would also like to take 
this opportunity to thank my colleague, Curt Weldon, for 
working in a partnership over the last 10 days in dealing with 
a whole range of issues that I do not think either one of us 
have ever dealt with before and hope that we never have to deal 
with again.
    The events of April 20, once again, show that the policies 
we implement and/or support as a Congress have real 
consequences. For the Bowers family, Jim, Roni and their 
children, Cory and Charity, those consequences have forever 
changed their lives. The same is true for the seriously injured 
pilot, Kevin Donaldson and his family.
    The events of that day are well-known to all of you. As 
your subcommittee and others take a closer look at the tragedy 
in Peru that took the lives of two innocent people, I would ask 
you to remember what the real cost of this event has been. A 
young woman, Roni Bowers, a daughter, a wife, a mother, a 
friend, and a woman dedicated to sharing her faith with the 
people of Peru, along with her young, adopted daughter, Charity 
was killed, senselessly and needlessly. There was no reason, 
there was no purpose, there was no gain. There is only the 
devastation laid on the doorstep of a family whose life was 
devoted to sharing the message of God, a message that has been 
amplified and one that has helped sustain them during these 
last horrible days. I will mention more about that in just a 
moment.
    As you look at the actual events, the policy that led up to 
those events and the reasons the policy contributed to these 
deaths, please do not forget that we are talking about real 
people. Roni and Charity had a profound effect on the lives 
that they touched. They were missionaries, living a lifestyle 
of sacrifice, so that they might be able to minister to the 
people in that region.
    I would like to thank the many agencies, both in the United 
States and in Peru, which, in the hours and the days after this 
tragedy, worked to help the victims and assist my office in 
separating fact from rumor. Their help ensured that I was 
equipped to help the Bowers family in the most effective way 
possible. I acknowledge the State Department, particularly our 
counsel general office in Lima, the Central Intelligence 
Agency, with special thanks to Director Tenet, the Drug 
Enforcement Agency and the Peruvian Government for their 
efforts to expedite the return of both the survivors and those 
killed on that fateful morning. The private sector, including 
Northwest Airlines and Continental Airlines, also stepped up to 
the plate to make sure this difficult time was made more 
manageable.
    When a family is visited by such enormous grief, there is 
almost always understandable outrage. But while the Bowers 
family has been deeply and permanently hurt, their attitude has 
not been accusatory, but rather conciliatory. When many of us 
would have withdrawn from the fresh and painful memory of this 
horrible incident, the Bowers talked about the all too short, 
but miraculous lives, of their beloved Roni and Charity and 
expressed their steadfast belief that this incident was part of 
a larger plan.
    The awesome power of God has been demonstrated through this 
event in ways no man could devise. Over the last few months, 
Roni had been praying the prayer of Jabez. This prayer calls 
for God to expand the territories that someone might influence 
for the Lord. Over the last 10 days, the ministry of the Bowers 
and the Donaldsons has been seen and experienced by millions of 
people throughout the United States and around the world. 
Seeing the family and their friends and coworkers handle this 
tragedy has been truly inspiring. They have demonstrated a 
quiet, yet strong confidence that they gained through their 
knowledge of Jesus Christ. I am thankful that these families 
knew Jesus and that Jesus has helped them through these 
difficult days as he supported them in their earlier ministry.
    Now, it is up to us to make sure this never happens again. 
As a government, I hope we make public all the relevant 
information regarding this event. The families and the American 
people deserve to know how this happened. I know there are 
certain pieces of this complex puzzle that we will never be 
able to explain, but there should be no part that we keep 
hidden. As we make this information public, I want it released 
in such a way that it is considerate to the families and 
victims. The families must be given the choice of reviewing 
such information before they see it on the evening news.
    We must also review the history of this program. I have 
learned that there have been concerns about certain actions of 
the Peruvian Air Force in the past, the kind of concerns that 
could have been a red flag warning that tragedies such as this 
could occur. We need to review those in more detail. But the 
question is clear: Did the United States have any indication or 
warning that a tragic mistake like this could happen? As we 
consider the lives lost and forever altered by this event, we 
must consider the policy that led to the involvement of the 
United States.
    As a Congress, we must weigh our desire to stop the flow of 
drugs into this country against the need to keep innocent 
people, no matter what their country of origin, safe. We must 
carefully consider whether we should continue to embrace a 
policy that can and has resulted in unnecessary, unwarranted, 
and totally unacceptable loss of life.
    Finally, we must reflect on whether we, through our actions 
here today and elsewhere, could ensure that this never happens 
again. We owe that to Roni and Charity, we owe it to Jim and 
Cory. We owe it to Kevin Donaldson and his family, friends and 
coworkers.
    Mr. Chairman, I would also like to submit for the record 
two newspaper articles that I think are very pertinent. The 
first is from this morning's Washington Post that does a fine 
job of showing the power of the Bowers faith and ministry 
called divine intervention. The second is an editorial in 
Sunday's Grand Rapids Press by John Douglas entitled, ``The 
Real Killers in Peru, U.S. Drug Users.'' I hope you will have 
time to read both of them.
    Mr. Chairman, thank you for inviting me to testify today.
    Mr. Souder. Without objection, both articles will be 
inserted into the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.010
    
    [GRAPHIC] [TIFF OMITTED] T8829.011
    
    [GRAPHIC] [TIFF OMITTED] T8829.012
    
    [GRAPHIC] [TIFF OMITTED] T8829.013
    
    [GRAPHIC] [TIFF OMITTED] T8829.014
    
    [GRAPHIC] [TIFF OMITTED] T8829.015
    
    [GRAPHIC] [TIFF OMITTED] T8829.016
    
    [GRAPHIC] [TIFF OMITTED] T8829.017
    
    [GRAPHIC] [TIFF OMITTED] T8829.018
    
    Mr. Souder. Congressman Weldon.

  STATEMENT OF HON. CURT WELDON, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. Weldon. Thank you, Mr. Chairman. Let me begin by 
thanking you and the distinguished ranking member and the other 
members of the subcommittee for responding so quickly to the 
letter that our colleague and I sent to you the day after this 
incident occurred asking for congressional inquiry into this 
outrageous and brutal murder of two American citizens in Peru. 
The Peruvian Government needs to be held accountable for this 
action and so does the American government and its agencies.
    Let me start out by saying I am a supporter of our drug 
policy in South America. I have traveled there this year, and 
am planning a second trip to spend time understanding the role 
of Plan Colombia and its activities and relationships on 
neighboring countries, including Peru. I am also a strong 
supporter of the military. I have been on the Committee on 
Armed Services for eight terms. I chair the Readiness 
Subcommittee, which oversees $110 billion of defense spending, 
and I will let you be assured that our committee is equally 
concerned about this incident and what we can do to get to the 
bottom of it.
    But I think your committee is in a unique position, because 
you can come in as an outsider and look at both the 
Intelligence Committee activities and actions and our 
Department of Defense actions. We are asking the Department of 
Defense for and have received classified briefings, and that is 
why my comments today will be based on public records, so that 
I don't, in fact, cross that line. But I think there are 
questions that this committee, in particular, can get to the 
bottom of through your subpoena power and through a necessary 
action to understand what really occurred, and the involvement 
of both the Peruvian Air Force and our military.
    I am going to make my comments rather short, because I did 
have a constituent family involved, but I think my colleague 
has expressed the condolences that both of us share with that 
family and with their loved ones during the days following the 
incident.
    I want to focus on some basic questions that we need to get 
answered. These need to be answered publicly, because the 
factors around these questions have been raised publicly. But 
up until now, we have seen the agencies hem and haw and not 
want to go into depth about the answer to these questions, 
which I think lie at the bottom of the investigation that your 
committee is about to undertake. I would encourage you to use 
your subpoena power, because no agency of the Federal 
Government, including the CIA or Defense Intelligence, is above 
the oversight of this Congress, and we have an obligation to 
make sure that they are abiding by our laws and our 
regulations. In fact, our defense authorization bill several 
years ago dealt with the policies that are in play in this 
particular incident.
    So let me proceed with the questions which I would ask your 
committee to raise and to get answers to during this hearing 
and follow on investigative work with the various agencies of 
our government.
    First of all, why was this plane brutally fired upon 
because it was identified or asked to descend? A common 
understanding would be, if you see a plane in an area, you 
would, first of all, ask to identify that plane and certainly 
instruct it to descend. There are mixed signals in the public 
arena about whether or not these directions were given, or 
whether or not these questions were asked. We need to know the 
factual answer to that question.
    No. 2. State Department spokesman Richard Boucher 
acknowledged after the incident, ``There are certainly 
indications that our folks on the plane were trying to hold the 
Peruvians back from taking action in this case.'' Well, this 
committee needs to find out what were those indications? Mr. 
Boucher was not to the point. He didn't give us the detailed 
information that now can be known from the tape recordings that 
were on that plane. We need to know what those indications were 
that Mr. Boucher was referring to that indicate that our folks 
on the plane were trying to hold the Peruvians back on this 
incident. I have my doubts until the very end of the actions by 
our own people.
    No. 3. There is referral in the media that the plane was 
flying straight and level which would indicate there was no 
effort to evade the Peruvian military. The videotape, which is 
available to this committee, either through subpoena or through 
voluntary compliance, shows that the Peruvians omitted or 
``truncated'' various parts of the procedure that are designed 
to avoid the downing of a civilian aircraft. This quote was 
made by a U.S. official who reviewed the videotape but did not 
want his name used. I would ask this committee to find that 
individual or to review that videotape itself and allow the 
committee to make a determination about the truncation of the 
various parts of a procedure which our government and the 
Peruvian Government had agreed upon prior to this action in 
terms of these kinds of planes.
    No. 4. Were strict procedures followed? The previous 
question said there was an allusion by an American official to 
a truncation of the process. Well, let's review what the strict 
procedures are that were established by our government and the 
Peruvian Government when a suspect plane could be shot down. 
U.S. monitors patrolling the border zone first had to establish 
reasonable suspicion that the aircraft is primarily engaged in 
illicit drug trafficking, according to our National Defense 
Authorization Act of 1995. That is a bill that my committee 
prepared and all of us supported with overwhelming numbers. 
That was the criteria in our legislation. Flying without a 
flight plan in a high-traffic drug zone is considered grounds 
for reasonable suspicion. Once U.S. officials tipped the 
Peruvian military about a suspicious airplane, the Peruvians 
must try to identify the plane by its markings, make radio 
contact, and order it to land for inspection.
    If radio contact is not possible, the Peruvian pilot making 
the intercept must make visual contact with the suspect 
aircraft and direct it to land at a secure airfield. If the 
orders are ignored, the Peruvian attack plane must get 
permission from superiors to fire warning shots at the 
suspicious aircraft first. If the warning shots are ignored, 
the military plane may shoot to disable the aircraft. Only if 
all of that fails may the pilot shoot down the aircraft.
    Mr. Chairman, through the procedures that our government 
and the Peruvian Government agreed upon, I am convinced they 
were totally violated in this action, and two people were 
brutally massacred because of the violations of that 
established and agreed-upon procedure. We need to have this 
committee get to the bottom of why the procedure was not fully 
followed.
    No. 5 is also an important point that has to be raised, and 
it is somewhat of a difficult point, with the pilot who happens 
to be from my district. Was there a flight plan filed? Mr. 
Chairman, there are reports by the organization that sponsored 
this plane, the aviation director for the Association of 
Baptists for World Evangelism, Hank Scheltema, that his group's 
plane had contacted the Iquitos Airport 45 minutes after it 
took off, or about 15 to 20 minutes before the attack. Now, 
Mario Husto, the civil aviation chief at that airport, said the 
tower received no communication from the plane until moments 
before it was downed.
    Mr. Chairman, obviously, someone is not being factually 
correct. We need to know if that plane filed a flight plan and 
if it did, and if it was filed 45 minutes before it was to 
land, then that airport knew that plane was en route, and also 
was tracking the CIA operated plane as well.
    No. 6, why was there not more aggressive and decisive 
action taken by the American crew on board that chaser plane? 
Why did that crew not more decisively attempt to abort the 
mission if they suspected the target aircraft was not involved 
in drug trafficking? Mr. Chairman, I submit to you, and I am 
using all unclassified material, there is significant 
classified material for you to make that determination. You can 
request and should demand those tapes; you should review them, 
because this committee needs to make a fair and independent 
assessment as to whether or not our employees on that plane 
took clear and decisive action. I will let this committee make 
that judgment in its wisdom after reviewing those materials.
    Finally, was the Iquitos Airport contacted in advance, a 
question you need to ask and get a specific response from the 
Peruvian Government.
    Mr. Chairman, these questions are very difficult for all of 
us, but the fact is that two Americans are dead today because, 
in my opinion, not just the Peruvian Government, but our 
government, failed two of our citizens. This should not have 
taken place. This is not about whether or not the drug war 
needs to be continually fought. It does. In fact, I agree with 
the comments made by our colleagues that much of the battle 
needs to be fought in the States. We must stop glorifying the 
use of drugs, as we hear every night on the TV set in our 
media, and start to go after those people who caused the 
problem in the first place, which is the demand, which causes 
farmers in Colombia and Peru and Ecuador to sell drugs because 
of the huge profits that are being made by those in America who 
want to use those very drugs.
    One final point, and this follows up on the comments of Ms. 
Schakowsky, and that is relative to the use of civilian 
contractors. I am not going to go as far as my colleague has 
gone, and I respect her tremendously for her leadership in this 
area, in saying we should never use contractors, because there 
are times, I think, where that case may be able to be made, but 
I can tell you that this committee needs to look at the 
contractors that our intelligence community utilizes. Why do I 
say that? Not just because of this incident.
    A decade ago, I lost a nephew, a young nephew who was 
sucked out of the Air Force by a recruiter for a CIA contractor 
promising him lucrative dollars to fly missions into Angola. 
None of us in the family knew that my nephew, Robbie, was 
flying on a former CIA contract in Angola. He was shot down and 
killed. The plane was demolished. To this day, I have never 
been satisfied with the response that I got from our 
intelligence community about whether or not that contractor was 
still involved with missions of intelligence and whether or not 
my nephew was killed in vain.
    Mr. Chairman, we owe it to all Americans to let them know 
that their government is monitoring our agencies. No agency of 
this government is above the law. I applaud you for your 
leadership, I applaud my colleagues for their interest, and I 
look forward to working with you as a senior member of the 
Committee on Armed Services to get the answers we all need.
    Mr. Souder. I thank both gentlemen for their statements, 
and let me, for the record, first acknowledge that 
Congresswoman Schakowsky has, in fact, asked us to look at the 
contractor question. We are looking at the best way to approach 
that, and we will not be cowed. I appreciate that the 
Congressman from Michigan is on the Intelligence Committee, and 
the Congressman from Pennsylvania has been a long-time leader 
on these issues on intelligence, and just so I can reiterate 
the point, this is a bipartisan concern. The original 
legislation, ironically, was introduced by then Congressman 
Schumer and Congressman Sensenbrenner to do this bill, and then 
the House bill was a similar variation on the Peru question was 
introduced by Mr. Torricelli, and Mr. Lantos and Mr. 
McCandless.
    As you mentioned, Mr. Weldon, you were on the committee in 
support of this effort. But all of us, in a bipartisan way, 
want to make sure it is being implemented the way Congress 
passed it. There is no way that Congressman Lantos or Senator 
Schumer and the others would support what happened here either.
    Nobody is above the law. Chairman Burton and I discussed 
over the last few days the possibility of a subpoena on this 
hearing for the CIA. At this point we decided not to issue a 
subpoena for today's hearing. There is an investigation going 
on right now in Peru. As I said in my opening statement, we 
want to make sure that is released, and I am more than willing 
to let other committees, including the Intelligence Committee, 
go ahead. I understand there are many other operations that 
have to be worked through. But the American public has a right 
to know what we are doing regarding learning the facts about 
this.
    As Congressman Hoekstra said, he didn't want to see the 
audio and videotapes released before the families could see 
them, which is a very reasonable request. But at some point 
here, once we see quotes and comments in the media by 
apparently a few selected members of the media being able to 
see this, yet we do not know whether we have seen the whole 
tape or heard the audiotape, once you have partial release, 
this is now in public domain, and it is endangering all drug 
efforts because people assume this kind of stuff goes on all 
the time.
    There has to be some sunshine on this, because I want to 
point out again, this is a bipartisan concern for many times 
different reasons, but a general concern about what has 
happened here and how, if this policy is ever reinstituted and 
other policies, whether it is contracting out or the clearance 
and how not to have--because we can't make these kinds of 
decisions, but what kind of checks can we have and balances 
that are even more tight when we deal with other nations, not 
just in the air surveillance, but as we are going to hear in 
many different areas.
    I would like to now yield to Congressman Platts of 
Pennsylvania who represents the district where the Association 
is based, for an opening statement.
    Mr. Platts. Thank you, Mr. Chairman. I have submitted a 
copy of my opening statement for inclusion in the written 
record and won't share all of the aspects of that, and much of 
it dovetails with our panel participants.
    I just thank you for the scrutiny you are bringing to this 
issue. The Association of Baptists for World Evangelism is 
located in York County, PA, in my congressional district. We 
certainly, as a Nation, need to do our utmost to take a 
tremendous personal tragedy of the Bowers family and turn it 
into a public good to ensure that no future citizen is an 
innocent victim of their life being taken and, in this case, a 
mother and wife, a sister, a daughter to Ronald Bowers that we 
don't allow this to occur. Again, your efforts as chairman of 
the committee will play a very important role in ensuring that 
we guard against this occurrence in the future.
    I think there are a lot of unanswered questions. Mr. Weldon 
and Mr. Hoekstra have raised some very important issues that 
you are pursuing, and any way that I can assist as a member of 
the full Government Reform Committee, I look forward to doing 
so. We need to get to the bottom of this and not allow this 
tragedy to go unlearned from for the future. Thank you, Mr. 
Chairman.
    [The prepared statement of Hon. Todd Russell Platts 
follows:]
[GRAPHIC] [TIFF OMITTED] T8829.019

[GRAPHIC] [TIFF OMITTED] T8829.020

[GRAPHIC] [TIFF OMITTED] T8829.021

[GRAPHIC] [TIFF OMITTED] T8829.022

[GRAPHIC] [TIFF OMITTED] T8829.023

    Mr. Souder. Mr. Hoekstra or Mr. Weldon, did you have any 
additional comments? Thank you very much for coming today. We 
will move ahead now to our second panel, if you could all come 
forward.
    Our second panel consists of representatives of the Federal 
agencies who are most directly involved in our interdiction 
efforts on a day-to-day basis. I want to personally thank all 
of you for appearing today on very short notice on this 
critical issue. Again, I would like to note that the 
subcommittee invited CIA Director Tenet or a representative of 
the Central Intelligence Agency and that the agency did not 
respond to our request. With us today from the Office of 
National Drug Policy is Bob Brown, the Acting Deputy Director 
for Supply Reduction, who will give us an overview of the 
background of the overall interdiction program; from the Drug 
Enforcement Administration, Administrator Donnie Marshall; from 
the U.S. Customs Service; Acting Commissioner Chuck Winwood; 
and from the State Department, we have John Crow, the Director 
of Latin American and Caribbean Programs from the Bureau of 
International Narcotics and Law Enforcement Affairs; and 
finally, to give us an operational and big-picture perspective, 
we have Rear Admiral David Belz, U.S. Coast Guard, Director of 
the Joint Interagency Task Force East.
    As an oversight committee, if you will all stand up again, 
it is our standard practice to ask our witnesses to testify 
under oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that the witnesses have all 
answered in the affirmative.
    We will now recognize the witnesses for their opening 
statements. We will ask you to summarize your testimony in 5 
minutes and include any fuller statements you may wish to make 
in the record.
    Mr. Brown, do you have an opening statement?

  STATEMENTS OF BOB BROWN, ACTING DEPUTY DIRECTOR FOR SUPPLY 
 REDUCTION, OFFICE OF NATIONAL DRUG CONTROL POLICY; DONNIE R. 
MARSHALL, ADMINISTRATOR, DRUG ENFORCEMENT ADMINISTRATION; CHUCK 
  WINWOOD, ACTING COMMISSIONER, U.S. CUSTOMS SERVICE; JOHN M. 
 CROW, DIRECTOR, LATIN AMERICAN AND CARIBBEAN PROGRAMS, BUREAU 
    OF INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, 
 DEPARTMENT OF STATE; AND REAR ADMIRAL DAVID BELZ, U.S. COAST 
       GUARD, DIRECTOR, JOINT INTERAGENCY TASK FORCE EAST

    Mr. Brown. Chairman Souder, Mr. Cummings, committee 
members, thank you for the opportunity to testify before the 
subcommittee. We at ONDCP appreciate your involvement and 
oversight of all aspects of our drug policy.
    At the outset, let me also express condolences to the 
family and friends of the Bowers for their tragic loss. We also 
very much regret the injuries suffered by Mr. Donaldson, the 
pilot, and wish him a full and speedy recovery. Also with 
regard to this incident, I would underscore that a joint 
Peruvian and American fact-finding effort began yesterday in 
Peru to determine the causes of this terrible accident. All 
U.S. Government activities which directly support the air 
interdiction programs involved in Colombia and Peru were 
immediately suspended after the incident on Friday, April 20, 
pending a thorough investigation and review.
    While it would be inappropriate for me to discuss the 
particular details of this tragedy, given the ongoing 
investigation, I think it would be useful to summarize how our 
air interdiction program fits into our overall international 
drug control strategy. Cocaine remains the Nation's principal 
drug concern, with more than 3 million chronic addicts spending 
more than $37 billion per year at the retail level.
    Although the number of monthly cocaine consumers is down 70 
percent from its peak in 1985, cocaine still wreaks devastation 
on families and communities across our Nation. Because cocaine 
is the most damaging drug, it is therefore our first priority 
for supply reduction efforts.
    If I could, please direct your attention to chart No. 1, 
and I believe there are copies of these charts provided to the 
committee members. Here in chart No. 1, we see that cocaine is 
produced entirely within the Andean region, that is, Colombia, 
Peru and Bolivia. As you see in the insert bar graph and 
referred to earlier, the overall cocaine production potential 
has dropped 68 percent in Peru and 82 percent in Bolivia 
between the years 1995 and 2000. Even considering the expansion 
of coca production in Colombia during this period, there has 
been an overall reduction of 17 percent in cocaine production 
capacity or potential in the Andean region.
    Turning to the second chart regarding air interdiction in 
Peru, you see how traffickers reacted to enhanced U.S. 
supported air interdiction beginning in 1995. On the left of 
the chart in the early part of 1990's coca-based flights in 
that day--at that time Peru was the dominant coca producer in 
the Andean countries--these coca-based flights flew directly 
north to finishing labs in Colombia.
    After interdiction became more effective, and pilots, 
criminal pilots, if you will, were convinced of the risk of 
flying, drug traffic flights became extraordinarily expensive 
to the traffickers and diverted further and further into the 
east, as noted there on the chart.
    And finally with the third chart, here you see how 
successful air interdiction affected the price that Peruvian 
growers could get for coca in Peru and how that caused coca 
production to fall over time. In 1994, U.S. assistance was 
suspended and by the beginning of 1995, prices reached record 
levels. In March 1995, as referred to earlier in our first 
panel and earlier commentary, U.S. assistance resumed and the 
impact was immediate. Pilots wouldn't fly into central Peru to 
pick up a load of drugs. Coca farmers couldn't sell the crop 
and began abandoning their fields. Over the last 3 years, 
prices have recovered, but for a greatly reduced volume of 
coca, again, approximately one quarter of what it was at the 
early part of this period.
    Let me make two final points. We must continue to support 
the Andean region if we are to reduce the supply of illegal 
drugs in a meaningful way. The Andes are at the core of the 
U.S. drug supply threat. This is why the administration has 
launched a comprehensive Andean regional initiative with 
assistance, not just for Colombia, but for all the Nations of 
the Andean region. As this subcommittee well knows, drug 
trafficking and drug abuse continue to exact a considerable 
toll on our country. We estimate that the United States suffers 
more than 50,000 drug-related deaths annually. Drug abuse costs 
our Nation about $110 billion a year from disease, lost 
productivity, and crime. Our national drug control strategy 
supports effective international cooperation, law enforcement, 
and demand reduction programs. This multi-faceted approach over 
time has reduced the impact of drugs on the United States.
    Finally, I would reiterate our condolences to the Bowers 
family regarding this terrible tragedy, and of course would be 
happy to respond to any questions that the committee wishes to 
offer. Thank you.
    [The prepared statement of Mr. Brown follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.024
    
    [GRAPHIC] [TIFF OMITTED] T8829.025
    
    [GRAPHIC] [TIFF OMITTED] T8829.026
    
    [GRAPHIC] [TIFF OMITTED] T8829.027
    
    [GRAPHIC] [TIFF OMITTED] T8829.028
    
    [GRAPHIC] [TIFF OMITTED] T8829.029
    
    [GRAPHIC] [TIFF OMITTED] T8829.030
    
    [GRAPHIC] [TIFF OMITTED] T8829.031
    
    [GRAPHIC] [TIFF OMITTED] T8829.032
    
    [GRAPHIC] [TIFF OMITTED] T8829.033
    
    Mr. Souder. I thank the gentleman. Mr. Marshall, do you 
have an opening statement.
    Mr. Marshall. Yes, I do. Good afternoon, Mr. Chairman and 
Ranking Member Cummings and the other distinguished members of 
the subcommittee. I want to thank you for the opportunity to be 
here today to discuss what I think is a very important and 
timely topic of our air interdictions in South America. The 
loss of lives and the injuries that we saw in the April 20th 
incident in Peru is indeed very, very tragic. And I want to 
join all of you in honoring the memories of those that 
perished. I also extend my deepest condolences to the families 
and the friends of those that lost their lives, and I have 
remembered all of them in my prayers as well. I know that they 
are indeed struggling through some very difficult times in the 
aftermath of this incident.
    And finally, sir, on behalf of everyone in DEA, I want to 
thank this entire committee for your support of our agency and 
for all of drug law enforcement. We're present, DEA is present 
in over 300 U.S. cities and 512 foreign countries. We have 
general aviation aircraft assigned to several of our overseas 
offices. In Peru, for example, there are two civilian type 
turbo prop aircraft. The pilots of those aircraft are DEA 
special agents and the aircraft bear U.S. registration numbers. 
They operate there with the full knowledge of the U.S. Embassy 
and host country officials and our DEA pilots follow host 
nation aviation regulations. The DEA aircraft that we have 
assigned in Peru do not participate directly in air 
interdiction operations. Rather, their missions normally 
include the transportation of special agents, host country 
police, prosecutors and equipment that are all needed to 
conduct criminal investigations. DEA aircraft are also used to 
pinpoint the exact location of clandestine laboratories, drug 
storage sites and illegal airstrips. There are other components 
of the U.S. Government who conduct joint operations with the 
government of Peru in an air interdiction program. This program 
is designed to identify and track suspect drug planes used in 
the transportation of cocaine hydrochloride and base from Peru 
to and neighboring countries. DEA does not conduct operations 
in direct support of that initiative. DEA has supported that 
program by supplying law enforcement information on clandestine 
airstrips, suspect aircraft and the movement of drugs and money 
by major criminal organizations.
    DEA's primary mission is not interdiction, per se, rather 
it is the dismantling of drug trafficking organizations through 
the investigation, indictment and imprisonment of the leaders 
of those criminal groups. Now, that process involves an 
approach that allows criminal investigations, law enforcement 
intelligence, and interdiction activities to complement each 
other and create a cycle that benefits the overall drug law 
enforcement efforts. DEA's primary goal in that process is not 
the interdiction of illegal drugs, per se; rather, it is to 
permanently remove those ruthless and predatory criminal 
organizations that produce and distribute those drugs.
    And we see that those criminals market their poison to weak 
and vulnerable people in our society. They degrade the quality 
of life in communities all across America, they contribute to 
crime and violence and death in this country. They destroy the 
future of many of our youth. And they rob many people even of 
their basic human dignity. And I believe that all of us have a 
brave and profound responsibility to protect the countless 
victims of drug criminals, and at the same time to do 
everything humanly possible to prevent the loss of innocent 
lives as we so tragically saw in this April 20th incident.
    Mr. Chairman and committee members, again, I want to thank 
you for the opportunity to appear today. And I'll be happy to 
answer any questions you have at the appropriate time.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Marshall follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.034
    
    [GRAPHIC] [TIFF OMITTED] T8829.035
    
    [GRAPHIC] [TIFF OMITTED] T8829.036
    
    [GRAPHIC] [TIFF OMITTED] T8829.037
    
    [GRAPHIC] [TIFF OMITTED] T8829.038
    
    Mr. Souder. Mr. Winwood, do you have an opening statement?
    Mr. Winwood. Yes, Mr. Chairman.
    Mr. Winwood. Chairman Souder, Congressman Cummings and 
members of the subcommittee, I thank you for the opportunity to 
testify on U.S. Customs air operations in South America. 
Joining my colleagues and before I begin my statement, I also 
want to join in expressing my deepest condolences and 
sympathies to the Bowers family for the tragedy they have 
endured, and I also want to extend my best wishes to Kevin 
Donaldson and his family for his full and speedy recovery.
    The mission of the Customs air and marine interdiction 
division is to protect the Nation's borders and the American 
people from the narcotics smuggling. Customs contributes its 
air and marine assets and personnel to joint operations 
throughout the source, transit and arrival zones. As a key link 
in the frontline of U.S. defense against drug traffickers, 
Custom's air and marine division plays a critical role in the 
Nation's counterdrug strategy. Customs authority to conduct air 
enforcement missions outside the United States arises out of 
numerous laws and Presidential directives. In addition to these 
provisions, the U.S. Government has international agreements 
and arrangements that facilitate our mission overseas.
    In 1989, Customs began to support interdiction operations 
under the control of the U.S. Southern Command [SOUTHCOM], with 
the deployment of air assets to Howard Air Force Base in 
Panama. In 1990, Customs was formally integrated into the 
Southern Command's planning structure by memorandum of 
understanding. Subsequent to that, MOU Customs aircraft and 
personnel were deployed to strategic locations throughout 
SOUTHCOM's area of responsibility. And under Presidential 
Decision Directive 14 issued in 1993, counterdrug strategy 
shifted the focus toward the source zone.
    Customs responded by flying routine missions over Colombia 
and began to pooling their assets at forward operating sites 
and locations throughout the region. Our P-3 AEW and Slick 
aircraft with detections systems designed explicitly for drug 
interdiction have become the mainstay of source zone detection 
and monitoring. We also utilize C 550 jets for close tracking.
    As the efforts to expand interdiction beyond U.S. borders 
have increased, so has the need for Customs presence in the 
source zone. Customs is now responsible for the vast majority 
of detection and monitoring flights conducted in the source 
zone. The last fiscal year approximately 90 percent of those 
missions were flown by customs assets.
    All Customs air operations in the source zone are under the 
tactical command of SOUTHCOM as a sign to the Joint Interagency 
Task Force East. Customs detection and monitoring flights are 
conducted as coordinated assistance to host countries under the 
terms of special bilateral agreements. Thanks to this 
cooperative framework, Customs has traditionally enjoyed very 
good relations with our host country partners enhancing the 
effectiveness of our mission.
    We have a longstanding policy that all Customs aviation 
missions must be conducted in accordance with strict, standard 
operating procedures. Working with our host Nation partners 
Customs, air and marine personnel have developed a series of 
detailed operating procedures specifically for South American 
missions.
    We are presently conducting a thorough review of those 
procedures. We go to great lengths with our host Nation 
partners to ensure that all standard operating procedures are 
followed to letter. The complexity of the assets we deploy, the 
advanced technologies we bring to bear, and the larger P-3 
crews involved in these missions all demand an extremely high 
degree of coordination. We are also continuing our efforts to 
modernize our air program. From a mission perspective, 
modernization will supplement the safety measures and standard 
operating procedures already in place. Over the next year, we 
will be taking delivery of six new P-3 aircraft.
    Mr. Chairman, the Customs service is firmly committed to a 
strong and active presence in the source zone. The smuggling 
threat in this region is pervasive. The drug cartels who 
operate these are flush with resources and ready and able to 
exploit any situation to their advantage. We have a 
responsibility to ensure that the most rigorous of procedural 
standards are applied to this sensitive mission. But the 
smugglers should not mistake our thorough concern for the safe 
and effective operation of flights as a lack of resolve. From a 
Customs standpoint, we will continue to do everything necessary 
to guarantee the safety and integrity of our mission in the 
region while curtailing the flow of drugs to America. I again 
want to thank the committee, Mr. Chairman, for the opportunity 
to testify and for your constant support for Customs law 
enforcement activities. Thank you.
    [The prepared statement of Mr. Winwood follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.039
    
    [GRAPHIC] [TIFF OMITTED] T8829.040
    
    [GRAPHIC] [TIFF OMITTED] T8829.041
    
    Mr. Souder. Thank you. Mr. Crow do you have an opening 
statement?
    Mr. Crow. Yes, thank you very much, Mr. Chairman, 
distinguished members.
    Mr. Souder. Mr. Crow, could you see if your microphone is 
turned on.
    Mr. Crow. Thank you. I would like to, first of all, add one 
more voice to the many voices when I say that our hearts very 
much go out to the family, to the Bowers family at this time. 
And our wishes equally are extended to Mr. Donaldson as he 
undertakes what we hope will become a speedy and sure recovery. 
Regardless of the outcome of the inquiry that's been initiated 
this week and will go on, and in view of Mr. Brown's very 
complete historical account of interdiction in Peru, I would 
simply add that we view air interdiction in Peru as having been 
the single most contributing factor to the dramatic drop in 
cultivation of coca, the area of coca under cultivation in Peru 
that we've steadily seen since 1996, 1 year after the 
institution, that of the air intercept program.
    We also believe that air interdiction is essential to 
sustaining the success of Peru's counternarcotics strategy, 
integrating strategy which combines interdiction with 
eradication and alternative development. Thank you.
    Mr. Souder. Thank you. And your full statement will be 
inserted in the record.
    [The prepared statement of Mr. Crow follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.042
    
    [GRAPHIC] [TIFF OMITTED] T8829.043
    
    [GRAPHIC] [TIFF OMITTED] T8829.044
    
    Mr. Souder. Admiral Belz do you have an opening statement?
    Admiral Belz. A very brief one, Mr. Chairman. Good 
afternoon, Mr. Chairman, distinguished members of the 
subcommittee. I appreciate the opportunity to appear before you 
today to discuss counterdrug operations conducted and supported 
by Joint Interagency Task Force East. We join others here today 
in expressing our condolences to the Bowers family, and our 
hope for a speedy recovery for Mr. Donaldson. With your 
permission, I would like my full statement to become a part of 
the record and also Mr. Chairman in the interest of time, I 
will forfeit my remaining time and look forward to answering 
any questions.
    [The prepared statement of Mr. Belz follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.045
    
    [GRAPHIC] [TIFF OMITTED] T8829.046
    
    [GRAPHIC] [TIFF OMITTED] T8829.047
    
    [GRAPHIC] [TIFF OMITTED] T8829.048
    
    [GRAPHIC] [TIFF OMITTED] T8829.049
    
    [GRAPHIC] [TIFF OMITTED] T8829.050
    
    Mr. Souder. I thank you and I want to thank you for 
clearing your schedule to come up today. I know that JIATF 
operations are based down in Florida, and there are many 
different things going on and we appreciate the sacrifice. We 
felt it was important to get on the record this whole debate in 
context because we certainly will have followup hearings as 
well. I'll start the questioning, I'm sure we'll go at least 
two rounds. So I will start with Mr. Brown. If we could put the 
second one of your charts up that showed how the traffic and 
Peru has changed. General McCaffrey has said that if this air 
bridge is down, I believe I think he said 180 days, if we have 
the policy changed we'll see shifts. Could you explain a little 
bit more of that chart how it has moved and what you may think 
may happen short term.
    Mr. Brown. What happened over this entire period of time, 
Mr. Chairman, I'm going to defer, or at least would offer Mr. 
Crow perhaps to amend this, because for a good bit of this 
time, he was, at that time, assigned to our Embassy in Lima. 
But generally, what you see is the trafficking aircraft here 
appearing as northern bound red arrows actually were Colombian 
aircraft, about 600 per year or so, a dozen or 15 per week. I 
hope the math works there, but it was something of that volume 
at the outset.
    As the interdiction efforts began and this particular air 
connection with Colombia was a particularly vulnerable aspect 
of the drug cocaine production system at that time, those 
flights dramatically dropped in number. The prices that the 
trafficking cartels in Colombia had to pay for those pilots 
escalated dramatically. I'll defer to Mr. Marshall perhaps for 
some numbers. And they, as you see geographically went further 
and further to the east. Trafficking then tried--if you can see 
there on the third chart perhaps, to adjust over time and still 
is attempting to adjust by going to surface movements to the 
west, to the Peruvian coast and by movements further south in 
Peru across Bolivia and Brazil, and out through more indirect 
routes.
    So I hope, Mr. Chairman, I've generally responded, but the 
number of flights dropped, the price went up, the risk was 
surely there. And I guess the bottom line point to where you're 
headed, perhaps, is the coca production enterprise--then 
essentially coca ``campesinos'' cultivating coca--that 
essentially collapsed over the next several years. There was 
widespread dislocation, there was an aggressive engagement in 
our Embassy and the Peruvian Government Alternative Development 
and Assistance Programs. So you see the price really was quite 
low.
    And then, I think the bottom line is, the total cultivation 
capacity steadily, as Mr. Crow I think earlier mentioned, 
declined from that point until today.
    Mr. Souder. Mr. Crow, as someone who both at INL and on the 
ground in Peru, maybe you could elaborate on the last point 
that Mr. Brown just made, and that is, that in Pucallpa and 
Iquitos, as well as meeting with INL people on the ground and 
talking with people who have been in cultivation over, I think, 
I have been there now four or five times, what's clear is I saw 
the pattern change of the willingness to join in the 
alternative crop program because when they had higher costs 
going through the rivering side they, in fact, offered less 
payments to the most poor. And when they offered the less 
payments to the most poor, all of a sudden alternative products 
seemed to make a difference. One of the questions, if you can 
elaborate on that point, and then also now that they have 
invested in the rivering, will they move back and how long will 
they wait to see what the U.S. Government is going to do?
    Mr. Crow. Thank you, Mr. Chairman. First of all, the 
pressure put on by cutting off access to the air bridge, 
thereby making it more difficult and even impossible for the 
traffickers to get their end final refined product or cocaine 
base out of the country led as part of a ripple effect to what 
we never would have imagined possible. Coca, the price of the 
coca leaf at the farm gate dropped to below the break-even 
point. So that literally, for the first time ever, coca was 
removed from the marketplace as the premier cash crop.
    And that set in motion for farmers who were predominantly 
noncriminal, that the opportunity to get to alternative 
development which for years we had held and believed was the 
only way for a given country to get a leg up and to loosen 
itself from the grip of trafficking. But at some point even 
though the alternative development is a lot more than simple 
crop substitution, we couldn't get there because coca always 
provided the best return, never mind the farmer, in quotes, 
who's essentially a trafficker employee. The honest farmer 
would say, yeah, I'd like to help you, but you know I can make 
more money with coca than I can with cacao. That changed. It 
has never before been something that was realizable we figured.
    Mr. Souder. On the rivering question.
    Mr. Crow. Rivering. OK. Air will always be the preferred 
way to move drugs. But Peru has 8,000 kilometers more or less 
of riverway. And the rivering program is an important adjunct. 
But air will always be the preferred way.
    Mr. Souder. How much cheaper would you say it is to move by 
air than by the river network, say, going through the Amazon 
basin? And do they have to go out through Venezuela or French 
Guyana?
    Mr. Crow. It's certainly cheaper in terms of time expended 
and in terms of eliminating a lot of the danger of being 
apprehended. It's fast, it's cheap, in that regard, and 
relatively threat free.
    Mr. Souder. Thank you.
    Mr. Cummings.
    Mr. Cummings. Just Mr. Brown and Mr. Crow. What was our--
what was the situation in Peru prior to the shoot-down policy.
    Mr. Brown. You had a rapidly growing coca cultivation 
circumstance. The hectare--and we have to refer to the maps--
but I think you see they were perhaps as much as 60 percent of 
the total Andean capacity for coca cultivation was then 
occurring in central Peru. You had an active Colombian presence 
in Peru. Most all of the production of cocaine base 
essentially, or going back early in the 1990's was coca paste, 
went on to Colombia for final processing, and then marketing. 
It was essentially managed by the Colombian cartels of that 
day. So if I'm on track with your question, Mr. Cummings, 
that's essentially what it was, it was a raw product input 
function for an Andean cocaine system managed by the Colombian 
criminal group.
    Mr. Cummings. Mr. Crow.
    Mr. Crow. I did my first tour again in counternarcotics 
side in the 1980's, in 1984 to 1987 in Peru. And at that time, 
light aircraft were literally flying into the Huallaga Valley 
with money, dropping off the money and picking up drugs. It was 
absolutely wide open. And again, the dramatic change that 
occurred when the pressure was put on to deny access to the air 
bridge between Peru and Colombia resulted in a night-to-day 
change. There is no question about it, and made possible for 
legitimate communities to sign up to alternatives, which, in 
fact, produced more revenue for them.
    Now, having said that, this success, many people have 
viewed that and have written Peru off as a success. It's very 
fragile. It is very much an imminent success that needs to be 
nurtured. Because if any part of the equation falls off, 
terrorism comes back, the price goes up, the air bridge breaks 
down, then have you the potential very clearly to go back to 
the way it was before.
    Mr. Cummings. So right now when you talk about it being 
fragile, right now with the suspension going on, do you 
anticipate that we will have an increase in these flights, 
these direct flights situation that you talked about a little 
bit earlier?
    Mr. Crow. There is a clear potential for that, yes.
    Mr. Cummings. Have you seen any indication of that already?
    Mr. Crow. I can't cite anything specific, but logic tells 
me that it's the potential is there. The price has gone up, the 
price of coca. Now it is back up, not across the board but it's 
gone up. It's probably much less than coincidental that Plan 
Colombia may have generated some of that. But the inability to 
control the skies as well as you might want to could add to 
that potential for the trend to continue and reverse itself.
    Mr. Cummings. You know, gentlemen, when I listen to 
Congressman Weldon and when he laid out the various procedures 
that you have to go through before you can shoot down a plane, 
it seemed to me that if one were to do that, to do all those 
things, you would--it would prior--whoever was flying the plane 
would almost subject themselves being presumed guilty because 
there is so much--there are so many steps there. And I'm just 
wondering, do you all see this as a--that is the shooting down 
of aircraft as a necessary evil of this whole process?
    Mr. Crow. Well, I see whether they need to be shot down or 
merely intercepted or made to land, I see the control factor as 
an integral need, yes. Because otherwise, again, the airway, 
the air part being preferred and being fast and easy, you just 
couldn't keep up with them otherwise.
    Mr. Brown. I would add, if I may, the policy, this use of 
force policy focused on here for Peru, but in many ways 
applicable to discussions of Colombia as well, those are 
sovereign initiatives by those countries.
    So what we're faced with, then, in this common goal that we 
have, I would suggest that it's an increasing one to do what we 
can demand and supply side both in the hemisphere to address 
the problem is to deal with the issue of will we assist with 
our information or not. And if we elect to do that, then what 
would the conditions be? This has gotten us into the whole 
process of the mid 1990's of certifying that indeed drug 
trafficking presents a national security threat to both Peru 
and Colombia.
    And second then, assuring ourselves that the government's 
procedures that you referred to we find to be acceptable. It's 
an interagency process, or was, at that time in our government, 
to guard against the loss of innocent life. Clearly we're here 
today because that didn't work on April 20th.
    Mr. Cummings. Just one other question, one more if I might. 
Do you all, any of you all, think that there should be another 
step or two in those safeguards that we talked about just now?
    Mr. Brown. I would suggest that we could hardly have 
fielded a more qualified capable investigation team than we 
just sent down Sunday. John Crow's boss, Assistant Secretary 
Beers, people that work for Admiral Belz, various skilled 
people, our U.S. interdiction coordinator, a very skilled 
team--they will engage with a like-qualified Peruvian team, and 
I am confident will make a near term and accurate report on 
just what went on during that incident and the failures with 
regard to the procedures on or the implementation of those 
procedures that occurred. So I hope nothing I say prejudges 
that, but I'm confident that we've got a skilled capable team 
in the field.
    Mr. Cummings. Thank you.
    Mr. Souder. We've been joined by chairman of the full 
Government Reform Committee and ex officio member of this 
subcommittee, Congressman Dan Burton.
    Mr. Burton. Thank you, Mr. Chairman. We appreciate you're 
being here. I'm a little troubled because, and I apologize for 
being late, but I just talked to some staff and they said most 
of the witnesses have said that they're waiting for a report 
from the people who have gone down there to investigate this 
before they make a statement on what actually happened. I 
understand from talking to Congressman Weldon that a lot of the 
procedures weren't followed, warning shots weren't fired and so 
forth. But so far nobody on this panel really seems to be 
prepared to answer whether or not that is case.
    And I guess my question is when Americans are killed like 
this and it's a tragedy, why does it take so long? I know it 
has been 10 days, but this government can move pretty speedily 
when it wants to. When did the people get down there who are 
doing the investigation and why weren't they down there the 
next day or two or 3 days afterwards so that the coverage of 
the United States could be made aware and the American people 
could be made aware of what happened?
    Mr. Crow, you want to answer that?
    Mr. Crow. I think they wanted to be very certain that the 
mix of people who went down was the correct one.
    Mr. Burton. The mix of people that went down was the 
correct one?
    Mr. Crow. Yeah.
    Mr. Burton. What do you mean by the mix?
    Mr. Crow. Well, a broad enough cross-section to look at 
various aspects. I'm conjecturing to a degree because I was not 
involved in that.
    Mr. Burton. Well, it seems to me, as a person who's been 
here for almost 20 years, that within 5 minutes I could say I 
want to send somebody from the CIA, DEA and State Department 
down there and you cover the bases pretty well. And then you 
buy an airline ticket or send them down on U.S. Air Force jet 
and get them down there to find out what in the heck happened. 
And here we are 10 days later, and the appearance to me is that 
you know, Mr. Souder moved as expeditiously as possible to have 
this hearing at the request of other members as well, and it 
appears to me that maybe the agencies of our government want to 
kind of just let this thing go until it kind of slides past and 
there's not any more hearings.
    But I assure you, if we don't get some answers, we will 
have more hearings. Mr. Souder wants more. He wants more 
information. And we don't like to send subpoenas out, but if we 
have to, we can write pretty fast here and we can do it. We 
want to know as quickly as possible why innocent civilians were 
shot down, missionaries down there and why it is taking so long 
for the various agencies of government to give a report to the 
Congress.
    Mr. Crow. I understand what you're saying, Congressman 
Burton, and I'm sure that you, the people that went down, want 
to come up with these same answers, what happened, what went 
wrong, and how to avoid it in the future. I think the time went 
to select not only the right mix, but the right people in that 
mix to do this job. And I am confident that it's a very good 
team. It's a good mixture and they are deadly serious about 
following through and coming up with the answers.
    Mr. Burton. But I won't belabor the questioning, Mr. 
Chairman, by taking any more time. I'm just saying that we and 
this committee, and especially the subcommittee chairman, will 
want a complete report as quickly as possible and if it's 
necessary, we'll have another hearing. I'm sure Mr. Souder will 
be willing to do that. And if necessary, we'll send subpoenas 
out to get whatever information that is not being given to us 
as quickly as possible.
    Thank you, Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman.
    Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. Gentlemen, I'd 
like to ask you if, in fact, that plane had been drug 
traffickers, and had been shot down, would that mission not 
have been considered a great success? Anybody.
    Mr. Brown. I think it refers to the purpose of the use of 
force policy that we support by the Government of Peru and is 
that effective. I think we have indicated, in our view, 
retrospectively it certainly has been. It would have been 
successful. But the procedures, and I don't want to speak for 
the letter of the procedures, but I think generally the 
procedures that are operative have been discussed here are 
designed not to cause that to happen. They're designed to bring 
those sorts of flights to justice.
    Ms. Schakowsky. But would there have been any inquires as 
to whether or not procedures were followed? Would anybody 
really care in missions like that? Is there any investigation 
after the fact? For example, what if everyone on board had been 
killed and it had been unclear exactly what had happened 
because we did not have eye witnesses to that. What kind of an 
investigation follows a shoot-down?
    Mr. Brown. I will defer to Admiral Belz to discuss after 
action reports, but I would suggest to you here two things: No. 
1, I know and have been around in the policy circles since the 
beginning of this period of time, I know of no incident, save 
the one the tragedy of the 20th where it's alleged that sort of 
mistake has been made.
    Ms. Schakowsky. How do we know--I'd like to know maybe, 
it's for Admiral Belz, if there is such an investigation that 
goes on and we try and find out exactly the circumstances and 
if procedures were followed.
    Admiral Belz. Madam, with regard to successful events, I 
would say that each and every one of these events that take 
place we get information as to the type of event that it turned 
out to be, was it legitimate drug traffickers with drugs on 
board or not?
    Ms. Schakowsky. So that's our only consideration is if in 
fact--so the answer is yes, that had they been drug 
traffickers, then that would have been viewed as a successful 
mission?
    Admiral Belz. Barring some other abrogation of procedures 
that we would know. We can monitor that. We know what is set 
out and required by U.S. endorsement of those procedures and we 
watch for compliance with those. We are involved with JIATF 
East in detecting, monitoring and tracking drug trafficking 
aircraft and vessels. Those vessels, once they are determined 
to be suspect vessels, are then turned over to either U.S. or, 
in this case, partner nation law enforcement.
    Ms. Schakowsky. Let me ask you this: If this kind of 
procedure is effective in reducing the use of drugs, why then 
don't we use it in the United States, have private contractors 
who finger aircraft or vans that are owned by drug traffickers 
and then say it is all right if certain warnings are given to 
just blow these out of the sky or blow up a van?
    Mr. Brown. Ma'am, I would suggest to you that in the United 
States, this sort of aerial movement of drugs is not a threat. 
In the case of Peru, it is a national security threat. I would 
add Colombia to that. This sort of large scale movement of 
contraband of drugs feeding the criminal groups, the 
aberrations to the local economy that occur, it is assessed and 
therefore they propose these use of force initiatives.
    Ms. Schakowsky. Are you suggesting that drugs are not flown 
in the United States, I mean to neighborhoods in Chicago or 
Baltimore or wherever?
    Mr. Brown. Yes, that's what I'm suggesting. There is not 
the aerial movement of drugs. And I'm not saying there is not 
absolutely one flight, but essentially that violation of our 
sovereign air space does not occur. We have a much broader law 
enforcement structure, we have communications with our air 
fields, airstrips. We have a law enforcement presence that does 
not exist in Peru or in the southern area of Colombia.
    Ms. Schakowsky. But we certainly have all seen air busts 
and raids. But are you suggesting that if that's how it 
traveled or even if vans, why don't we blow up vans in the 
United States? If our goal here is to stop drug use in the 
United States, and we can finger those who are actually 
suspected of it, or in fact conducting that activity, why is it 
that we don't adopt a similar policy? Which to me--I mean, I 
would like to answer that question because that is not our law 
in the United States. It would be an outrage to the American 
public if without due process we were blowing planes out of the 
sky or blowing up vans of people who are carrying drugs. And I 
guess I'm just perplexed that we would contract out for this 
kind of service.
    And by the way, I'm sorry the CIA isn't here when I called 
to find out who are those private contractors, who is the 
contractor responsible for this, I was told as a Member of 
Congress that I was not privy to that information, to even know 
who it was that is executing U.S. policy in Peru. Thank you.
    Mr. Souder. I wanted to clarify one question, Admiral Belz. 
Is there not a check-off that any of our pilots would show that 
whether the procedures have been followed?
    Admiral Belz. Yes, sir. There are published procedures for, 
in particular, the detection, monitoring and tracking aspects 
of the mission. Of course, I believe the people who are doing 
this are monitoring the compliance of those same procedures by 
the intercepting air traffic. This is a different and distinct 
function as we move to the law enforcement part of that role. 
And certainly, that was evident from what I have been able to 
also read in the media about the compliance of that checklist 
in this particular event. And it was not executed. And I think 
that's where you see the indications of the crew attempting to 
intervene.
    Mr. Souder. Because certainly that would be something that 
the Congress and general public would expect to be in addition 
in a clarification to be able to analyze is whether or not the 
check-offs that were in the legislation were, in fact, followed 
by the host nation?
    Admiral Belz. That is correct, sir.
    Mr. Crow. I would also add that the value of intelligence 
is very great. The more intelligence driven a given operation 
is a greater chance for success. We would certainly pursue and 
have in the United States aircraft or vehicles that we believe 
are worthy of being pursued. Whether we shoot them down or make 
them land or follow them, as we have through the years, is up 
to the individual situation. But intelligence is key. It keeps 
you from patrolling the skies until you run out of fuel.
    Mr. Souder. Congresswoman Davis.
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Chairman. 
First I want to make sure that I understood everything clearly. 
The CIA flight that provided the information was piloted by a 
private contractor. Is that what I am understanding?
    Mr. Crow. I can't give you that answer with certainty. I 
don't know.
    Mrs. Jo Ann Davis of Virginia. Do you know if that CIA 
flight that provided that information that led to the shoot-
down, were they under the control of the State Department or 
American Embassy?
    Mr. Crow. I'm sorry, I didn't here your question.
    Mrs. Jo Ann Davis of Virginia. The CIA flight that provided 
the information that led to the shooting down of the missionary 
plane, was that CIA flight under the control of the State 
Department, the American Embassy, or who controlled it?
    Mr. Crow. I can't give you that answer either. If it came 
out of the Embassy, obviously ultimately the Ambassador would 
have potentially known of it or been involved. But I don't have 
the particulars of that program. It's not a program that we 
run.
    Mr. Brown. Let me try to give you perhaps a partial 
structural answer to it. We have a national interdiction 
command and control plan and architecture administered by our 
Defense Department. And in this particular South America or 
hemispheric region, it really is operated by Admiral Belz and 
his Joint Interagency Task Force, JIATF East. There are then 
with Customs aircraft, or any of our other aircraft, a number 
of intelligence or end game assistance sorts of efforts 
involving aircraft and other operatives, if you will. These all 
work under the purview of our Ambassador in whatever particular 
country and with his country team there.
    Mrs. Jo Ann Davis of Virginia. As I understood it, I guess 
I'm getting confused on this now, there was a CIA flight that 
provided the information that led to shooting down the 
missionary plane. Who did that guy work for, that plane?
    Mr. Brown. He worked for the Ambassador; whoever that pilot 
and whoever that crew was, worked for the Ambassador.
    Mrs. Jo Ann Davis of Virginia. Rear Admiral, Mr. Brown was 
saying he was under you.
    Mr. Brown. No, I didn't say that, or I didn't intend to say 
that. Pardon me if I did. I'm saying that the command and 
control structure for air interdiction of the aerial or 
maritime movement of drugs--better said the detection and 
monitoring function were air and air maritime movement in the 
hemisphere as a whole, is managed by Admiral Belz. Now, 
specific Customs aircraft or other aircraft that are supporting 
our cooperative supply reduction programs in any one of those 
countries fall under that particular country team and that 
specific Ambassador. In this case, Ambassador Hamilton in Lima.
    Mr. Souder. Would the gentlelady yield?
    Mrs. Jo Ann Davis of Virginia. Yes, be happy to, Mr. 
Chairman.
    Mr. Souder. My understanding is that generally the flights, 
for example, the Customs flights would be reporting through 
SOUTHCOM, of which Admiral Belz is the coordinator of JIATF. So 
the information is moving generally through you. But this 
particular case, when it is a CIA contractor, does not; is that 
correct?
    Admiral Belz. That is correct, sir.
    Mr. Souder. That whether it's a Customs plane or a CIA 
plane, they are nominally under the control of the Ambassador; 
is that correct, Mr. Brown?
    Mr. Brown. Correct.
    Mr. Souder. As a practical matter, when it's a contractor, 
they have to follow the guidelines, but they are, generally 
speaking, more directly under the control of the CIA on a day-
to-day basis other than in general mission under the 
Ambassador; is that correct?
    Mr. Brown. Yes, sir.
    Mr. Souder. Is that fair to say, Mr. Crow? Does that 
fairly--in other words, each mission isn't necessarily 
micromanaged by the Ambassador. He----
    Mr. Crow. That's correct. Although ultimately everybody in 
the country working in and around answers to the Ambassador.
    Mr. Souder. Including the DEA.
    Mr. Crow. That's correct.
    Mr. Souder. And those are supposed to be coordinated, that 
our concept of ONDCP is to have a general person watching the 
drug aspect because the Ambassador has far more than just 
antinarcotics; is that correct?
    Mr. Crow. Well, we have the whole counternarcotics country 
team at an Embassy.
    Mr. Souder. That's just a subpart of the Ambassador's 
overall mission?
    Mr. Crow. Yes.
    Mr. Souder. Do you have any other? I tried to clarify that 
a little bit.
    Mrs. Jo Ann Davis of Virginia. It didn't clarify that 
particular----
    Mr. Souder. That particular flight, my understanding is 
nominally under the control of the Ambassador. None of the 
other agencies had any input into it and on a day-to-day basis, 
would have been indirectly under the control of the CIA, but 
they contracted it out.
    Mrs. Jo Ann Davis of Virginia. OK.
    Mr. Souder. Does anybody disagree with that statement?
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. Maybe a first, a 
followup on that very point. Understanding that the day-to-day 
oversight is not with the Ambassador it's with the CIA. But 
we're now 10, 11 days after the event, and is it accurate that 
at this point still, the Department of State's position is that 
the Ambassador, even though this flight was under his purview 
was statement, you really don't have any specifics about this 
flight, as Congresswoman Davis is----
    Mr. Brown. I don't think there is any doubt that the 
Ambassador would know that flight or any other supporting 
flight from Customs or wherever it might be, or even the 
logistics aircraft Mr. Marshall mentioned were under his 
purview. There would be no question. I would suggest as evasive 
as it no doubt will sound, that the specific command and 
control relationships and the procedures following the aircraft 
involved in the April 20th incident ought to await this 
investigation that's ongoing now. It will clarify, and I'm sure 
will be made available to the subcommittee and to the Congress 
at large to give you a clearer feel for that particular 
relationship within Peru.
    Mr. Platts. And I appreciate that, and my purpose here is 
to learn more about the program in total, and as that more 
specific information becomes available, to learn of that. But 
it seems, I guess, to the chairman's point, Chairman Burton's 
point that we are 11 days in, and we don't have some of the 
basics in hand to be shared with this subcommittee and with the 
Congress through this subcommittee. And understanding that some 
of the specifics need to be further investigated, but some of 
the basic questions that have been addressed here have not been 
able to be answered. And especially, I guess, for the 
Department of State, if the Ambassador is the one ultimately 
who has got purview over this flight, that we don't have some 
of those basic questions in hand, you know, or answers in hand 
today.
    So the followup on that issue is, and Mr. Crow, maybe to 
you specifically, when is the best guesstimate you can give us 
on a timeframe for their ongoing investigation to be concluded 
that you will be back before us with some specifics?
    Mr. Crow. This could change, but I believe that Randy 
Beers' goal was to have this first phase, what may be a first 
phase or not, done this very week. Maybe 3 to 5 days. And I 
don't want to speak for him, but that is the idea. Whether 
there is any followup or not, that needs to be done before it's 
all completed. The goal was this week to have the largest part 
of it underway and through.
    Mr. Platts. That's encouraging to hear that timeframe is 
what's being discussed. I'm certain Chairman Souder will be 
anxious to have that information made available to the 
committee as soon as it is concluded, that first phase, or 
perhaps first phase.
    Mr. Brown, can you give maybe a quick background on, again, 
as one trying to educate myself when we see the numbers, which 
make a pretty strong case of the success of the interdiction 
efforts in Peru and Bolivia, 68 percent reduction, 82 percent 
reduction, but overall, the Andean production is only down 17 
percent. And you look at the chart and can see where the 
increase is: Colombia. What is your best suggestion, what we're 
doing so right in Peru and Bolivia and not doing well enough in 
Colombia, or is it more internal with the interactions with the 
Colombian Government where the difficulty lies?
    Mr. Brown. Well, I think one of the obvious lessons here I 
think with regard to this massive cocaine production criminal 
enterprise is that it will seek out those areas not controlled 
by sovereign governments. And in this Andean region, as perhaps 
many of you have experienced yourselves, this is very much or 
hinterland, little infrastructure, no law enforcement presence 
to speak of by the Colombians. So I think the answer is that 
the criminal enterprises, which throughout this period, were 
dominated by the Colombians, and, in fact, is many ways still 
are, sought out a more assured source of their coca product of 
their cultivation, and it then began to expand, reacting to the 
threats that were posed in part by the air bridge and other 
actions as well. And you see the expansion in Colombia.
    We're heartened that the overall production capacity 
declined over that period. But surely the criminal enterprises, 
the cartels, if you would, sought out places where they could 
basically dominate the environment.
    Now, you have added complexity in the case of Colombia 
because there are significant armed groups there, as perhaps 
you're familiar, that themselves have exploited the growing 
cocaine production circumstance to their own ends. I might add, 
and I did not earlier to Mr. Cummings question, there was in 
the mid 1990's, a terrorist or an illegal armed group, a 
``SenderoLuminoso'' movement. And in the early 1990's, it was 
also influential with regard to the security of these coca 
cultivation areas of Peru at this time. That would be my 
response.
    Mr. Platts. It seems that from the chart, the success we've 
enjoyed being specific by nation is how to have that be a 
comprehensive regionwide success, and perhaps Plan Colombia 
will help us to achieve that. Because if you look at the 
tremendous reduction over 500 metric tons in Bolivia and Peru, 
but you see an increase of 250 metric tons in Colombia and at 
that same time, as you say the patterns are shifting as much as 
being won in a great fashion.
    Mr. Brown. The cocaine production problem and the demand 
problem, which is a problem for these countries as well, is 
increasingly seen by all of the leaders to be a common 
hemispheric problem. The cocaine situation I refer to, I think 
accurately, is indeed a regional problem and ought to be 
addressed regionally. And I think you saw in our recent 
submission here the administration proposed an Andean Regional 
Initiative that would continue these initiatives for the drug 
issue and for other issues in Colombia, but would expand that 
to the other Andean countries to include Panama and Brazil. The 
nature of the assistance would be evenly, generally evenly, 
divided between, if you'll allow interdiction, but it's 
basically a broader side of law enforcement and supply 
reduction assistance, as well as alternative development and 
related sorts of assistance in that area.
    Mr. Marshall. May I add something, sir, in response to your 
question? You asked what were we doing right in Colombia as 
well. I think we're doing a lot right throughout the region and 
particularly in Colombia. U.S. law enforcement, along with 
Colombian law enforcement over the past 7 to 10 years, have 
destroyed the Medellin cartel, the Cali cartel, and we've seen 
a mutation of the ways these Colombian organizations operate. 
We've had great successes against their cells operating in the 
United States against in partnership with Colombian law 
enforcement who have been really nothing short of heroic. And 
what we see now is that we really, I think, have had an impact 
on the growth of the cocaine market in the United States. It 
appears to me that that market has stabilized in the United 
States. It's no longer growing at the rate that it once did. 
And we see the Colombian organizations, what's left of them 
turning more and more of their attention to increasing their 
markets in Europe and other parts of the world rather than 
focusing on increasing the U.S. markets.
    So we have done a lot right both in the United States and 
in Colombia and throughout the region. And I think we have to 
continue that.
    Mr. Souder. We're going to go to second round.
    Mr. Platts. Thank you, Mr. Chairman. If I could make a 
final statement, is that I appreciate the efforts on the front 
lines of those men and women who are trying to serve our Nation 
through the interdiction. I think it's just incumbent upon us 
because of the tragic loss of Roni and Charity Bowers that we 
renew our commitment from doing it right from top to bottom. I 
appreciate your efforts in trying to make that the case, and 
Mr. Chairman, in holding this hearing and moving the process 
along.
    Mr. Souder. Thank you. Let me say, first, for the record 
that a 17 percent reduction on the interdiction is far more 
success than we've seen in prevention programs and treatment 
programs. 17 percent reduction isn't as great as what has 
happened in Bolivia and Peru. Bolivia has used a totally 
different method from the powers of pulling out the crop. There 
are different ways that different countries have done it, but 
as we move Plan Colombia, and my question, if you can start me 
up, Mr. Marshall, is while we've seen success in the region, we 
saw some of the overwhelming success in Peru and Bolivia move 
over to Colombia.
    Now, as we pursue aggressively Plan Colombia, maybe you can 
briefly comment again on the eradication effort on the coca, 
and as we move to the heroin poppy, there is a danger that is 
going to move back into Peru, and Peru is again at risk.
    Mr. Marshall. Certainly you see that danger. And I've heard 
in my travels and my talks with host country law enforcement 
agencies, particularly from Peru and Bolivia, that we must not 
think that their problem is solved and forget about them 
because they're concerned about the very issue that you raised. 
And again, that, I think, is an indicator of the importance of 
regional programs to address the problem on a widespread basis.
    Mr. Souder. I also wanted to elaborate on a point that you 
said, or ask you to elaborate on. You said the primary goal in 
DEA is to get to the cartel level. Obviously, that is better 
done if the drug dealers are alive. Would DEA not rather 
prefer, if possible, to have a force down than a shoot down?
    Mr. Marshall. Oh, absolutely. We would rather have an end 
game, as we call it, where we could have access to the 
aircraft, where we could have access to the evidence that we 
seized, get in the data base of the aircraft navigation system, 
interview the witnesses, the people that were arrested, and 
hopefully gain even more intelligence information about who the 
cartels are, who their leaders are, how they operate, what 
their weaknesses are, and ultimately then, as I said in my 
statement, look to investigate, indict and imprison, bring to 
justice, as it were, the leaders of these organizations. It 
would be far preferable to accomplish all of that behind each 
and every one of these incidents.
    Mr. Souder. When I was in Iquitos they have air and 
rivering but terrible highways. It takes forever to try to go 
over land. If there had been a force-down, had this been a drug 
plane, can DEA respond to that? Can we move resources around or 
do we need additional resources if, in fact, we want more 
aggressive approach?
    Mr. Marshall. We try to respond to as many as we possibly 
can, but frankly there are, because of the problems that you 
outline, it's not possible to respond to all of them. On those 
that we have been able to respond to and get to on the ground, 
we have gained some significant intelligence that led us to 
further criminal investigations out of several of those 
incidents.
    Mr. Souder. Do we cross-check information in this system 
before the process is implemented? Was DEA asked, in any 
clearance mechanism when they checked the control tower, 
whether you had any information on this plane?
    Mr. Marshall. I'm sorry, I didn't hear your question.
    Mr. Souder. In other words, how involved is DEA. In other 
words, while we hear that the final phase is this, according to 
public record, we're a matter of seconds, as they jump phases 
clearly, there was an extended period where they were following 
the plane. Supposedly, this videotape is 45 minutes. In that 
process in the intelligence gathering, is DEA contacted at any 
point? And did you have any information on this plane had they 
contacted you?
    Mr. Marshall. We were not contacted in this instant nor are 
we normally contacted in this interdiction operation.
    Mr. Souder. Mr. Winwood, Customs clearly is also flying 
surveillance in the zone. Do you have source country people on 
the plane? I believe you have Peruvians as well in any of your 
surveillance?
    Mr. Winwood. We operate our own P-3's in the source country 
under the command and control of JIATF East. On the aircraft we 
have what we call a host nation liaison officer on all P-3 
flights, and in most cases, we have a JIATF East coordinator 
that is bilingual on our flights. So we're operating in the 
source zone. We have those individuals helping us monitor the 
air traffic and also to monitor the conversations that might 
occur.
    Mr. Souder. Admiral Belz, you have source country people at 
your base as well?
    Admiral Belz. Yes, sir. We have at JIATF East, we have both 
Peruvian and Colombian host nation or liaison officers. In the 
case of Colombia, both from the air side and the naval side. In 
the case of Peru, an Air Force, Peruvian Air Force liaison 
officer.
    Mr. Souder. Mr. Winwood, could you describe the procedures 
you have on board before you would get into the phase where 
there is a shoot-down if Customs provided the information?
    Mr. Winwood. As I mentioned earlier, Mr. Chairman, we have 
very stringent operating procedures how we operate in the 
source zone. First of all, there is quarterly meetings as to 
what assets would be available and we coordinate with JIATF 
East and let them though what assets we have available. They 
coordinate and set up the area of operations where they want 
their missions to be flown. The detail that was laid out by the 
first panel as to the steps needed to be taken are a part of 
our standard operating procedures. We monitor those very 
stringently. When we detect a potential target, and ascertain 
that it is a possible target, we make sure that the host nation 
liaison officer that is on the aircraft follows those 
procedures, because once we detect and----
    Mr. Souder. Describe what ``make sure'' means?
    Mr. Winwood. Through monitoring the coverages we listen to 
what is being said. We make sure the checklist goes through. We 
make sure our crews follow the checklist of all the actions 
that we have taken. The very first one that is done is to 
visually identify the tail number and then we have computers on 
board our P-3s, then we can ascertain whether or not it's an 
aircraft of concern to us. Because we have not only access to 
the registered tail numbers of U.S. aircraft, but also 
information on tail numbers of foreign registered aircraft.
    Mr. Souder. What happens if they don't follow that 
procedure?
    Mr. Winwood. Pardon me, sir?
    Mr. Souder. What happens if, as you are monitoring them, 
they are not following the procedure? Would you prohibit them 
from going ahead with the shoot-down?
    Mr. Winwood. Well, I can't conjecture on what could happen. 
We have never had an incident where there has not been standard 
operating procedures followed to the letter, not one. We don't 
plan on having any. We do constant training with our host 
nation liaisons, we do constant training with the officers and 
the people involved in the source country. We just had an 
updated training in the latter part of this past September. We 
have never had an incident where that would occur.
    If such a thing might occur, we immediately would report to 
our control, command and control through secure conversations 
to JIATF East and notify them immediately that there seems to 
be a deviation from the norm. But we have never had such an 
incident.
    Mr. Souder. If I can ask, what you are saying is, while it 
is in process, if you saw it not being followed, in addition 
you would contact JIATF East to warn them because they would 
also have Peruvians there?
    Mr. Winwood. Right. What we have, Mr. Chairman, on our 
policy is that while we are involved in the detection and 
monitoring of an aircraft, there are three basic procedures to 
make sure our crew strictly follow. We monitor all activities 
associated with that particular engagement, we record 
everything that is occurring during that particular engagement, 
and we report everything that occurred as a followup. In 
addition to that, there is a debrief of all of our crews once 
the plane returns as to any incident that we were engaged with.
    So that is constantly a part of our standard operating 
procedures.
    Mr. Souder. Thank you.
    Mr. Cummings.
    Mr. Cummings. Can somebody tell me how many airplanes have 
been shot down since 1995? Shoot-downs and force-downs?
    Mr. Crow. We were not able to come up with one, or agree on 
the same figure. The figures which I, for example, heard was 
given from post show--we don't have one figure that we all 
agree on.
    Mr. Souder. Excuse me, Mr. Crow. If you could just pull the 
mic toward you a little bit. I think you turned it back off, 
too.
    Mr. Crow. Sorry.
    Mr. Souder. You are on.
    Mr. Crow. Sorry. We were just talking about that earlier. 
We don't have one figure that we agree on, but there are 
figures which show that starting in 1995, aircraft were not all 
shot down, some forced down, but through a combination figure 
of some 50 aircraft, and that is not precise.
    Mr. Cummings. All right. Well, I mean, I am sure you have a 
great answer to this question. Why is that an issue? Why can't 
you tell me that? I mean, is that--in other words, we are 
talking about shooting down people, like dead, I mean and we 
are talking about using--I mean this is some serious stuff. I 
am trying to figure out, if I was just a regular citizen just 
sitting here looking at this and I have some of my top flight 
people in the drug war talking about how they don't know how 
many shoot-downs or force-downs, I would be a little bit 
concerned about what is going on.
    Mr. Crow. Well, I understand, and I think that the time 
that has passed since the incident, maybe hasn't gotten us to 
the point where we have one specific number. But I am confident 
that the team that is down there now as a part of its work will 
be able to give the precise answer that is required.
    Mr. Marshall. Mr. Cummings, if I may, I can give you some 
figures on DEA's involvement, the ones that we were involved 
in. Since 1995, we have provided intelligence in 46 separate 
events, intelligence on suspect aircraft that we believe were 
operating up there. Out of those 46 pieces of information that 
we provided, there have been 18 events that resulted in force-
down or shoot-down, and out of those 18 events, almost 3 metric 
tons of cocaine were recovered.
    Mr. Cummings. OK.
    Mr. Brown. May I add as well?
    Mr. Cummings. Yes.
    Mr. Brown. We provided a background chart.
    Mr. Cummings. Yes, I have that here.
    Mr. Brown. If I may, just add to that, I think what you see 
is different perspectives of something that is inherently 
Peruvian in its development. We have ongoing right now an 
incident-by-incident review of the data base related to all of 
these incidents during all of these years. It is not available 
today, and in the appropriate setting and in the near term, it 
would be made available to the committee members. But I think 
what you see is different agencies within our government, not 
to mention what the Peruvians themselves would say about 
incidents that they are familiar with that perhaps we only 
partly know or don't know about at all. So resolving that 
quantitative understanding is underway now and should be made 
available to you soon.
    Mr. Cummings. Do you know whether the task force, the group 
that has gone over to Peru to do the investigation, do you know 
whether they are looking into--and this is why I ask the 
question. I wanted to know how many shoot-downs and I wanted to 
know how many planes have been shot down, but do you know 
whether they would be making a comparison to those situations 
where they were able to force a plane down as opposed to 
shooting it down? Do you understand the question?
    Mr. Crow. Yes. I would presume also that information is 
available. In other words, the number of aircraft that were 
actually shot down as opposed to made to land or forced down.
    Mr. Cummings. I am talking about what happened. Somebody 
said something about debriefing, and I guess I am just looking 
at what did it take for us to get--and I know all of the 
circumstances are different, but there may be some common 
threads running through those things, and I was just wondering 
if there is a situation where they are looking into an X amount 
of flights, we were able to force them down, and this is what 
we did. Language was not a barrier, or whatever. Things that 
may have--that clearly show that there was a pattern with the 
force-down in maybe a certain region, I don't know. But I was 
just wondering, is that a part of it? Because it seems--I mean, 
I keep--I want to come back to what we are concerned about 
here, and that is innocent people being hurt and innocent 
people being killed. So here we have a situation where the 
pilot was at least able to get the plane down so that there 
were some survivors, but the plane had been shot at, and 2 
people killed.
    So I am trying to figure out where--I mean does this 
investigation entail that, and if it does not, I want to make 
sure it does.
    Rear Admiral, were you about to say something?
    Admiral Belz. I was going to refer to Mr. Crow to answer 
the specific question, but I certainly think that the trend has 
been certainly more recently to have more force-downs or ground 
activity than in the shoot-down category.
    Mr. Cummings. Do you know why that is?
    Admiral Belz. I think I would be premature to speculate. I 
have only been at the command for 7 or 8 months myself, but I 
think that several things have happened: the drug traffickers 
know about this program, so they tend to go to the depths when 
they are illegitimate drug traffickers, and in general, there 
is also a process in place that is very, very meticulous. The 
efforts that we have talked about heretofore are the procedures 
that take place after the interdiction. There is also a 
considerable amount of effort that goes on to identify a 
suspect or a potential suspect aircraft that precedes that.
    Mr. Souder. The Admiral's modesty is commendable. He also 
headed JIATF West, but it had a different jurisdiction, but he 
has the unique distinction of having headed both divisions, 
which gives him a great perspective on this.
    Chairman Burton.
    Mr. Burton. As I understand it right now, there are three 
agencies that are involved in intercepts and that is Defense, 
Customs and CIA, is that correct, that is involved in 
intercepts? Are there other agencies involved, or just those 
three?
    Mr. Brown. The Coast Guard could be, although not 
applicable down in these areas.
    Mr. Burton. Coast Guard, though, that is----
    Mr. Brown. Broader, yes, sir.
    Mr. Burton. That is not in the air, is it?
    Mr. Brown. The Coast Guard could be involved in the transit 
zone, could be, yes, sir.
    Mr. Burton. Coast Guard has planes that do that too, as 
well?
    Mr. Brown. Yes, sir, but so as not to confuse the issue, it 
is not applicable in the interior source countries.
    Mr. Burton. OK.
    Mr. Marshall. Mr. Chairman, DEA is involved in intercept 
operations in the Bahamas, but we are not involved in Peru or 
any other countries.
    Mr. Burton. Well, one of the problems that we have is that 
CIA has been reluctant to give information or testimony before 
the committee and I think we are going to talk to them, when is 
it, Mr. Chairman, tomorrow sometime or in the near future?
    Mr. Souder. Yes.
    Mr. Burton. And it seems to me that there ought to be one 
agency, maybe two at the most, that are involved in the 
intercepts and enforcement of law that could report to Congress 
in the event that we have some kind of a problem in a fairly 
expeditious manner, and we don't involve--I mean I don't 
understand what is so secret about this, that we can't get the 
information and get it very quickly. I mean, a plane was shot 
down, Americans are in the plane.
    We need to know, Americans need to know why it was shot 
down, what needs to be done to make sure it never happens 
again, and who was responsible. It is not that difficult. And 
yet, it seems like we are kind of pulling teeth to get that.
    So I guess the question I have is, would it be possible for 
Customs, let's say for instance, to take over the intercept and 
enforcement of law in this, or would it be another agency that 
could do it and consolidate it all into one agency, instead of 
having, you know, four or five agencies doing it. One in 
particular that is involved in secret covert operations that 
cannot really publicly tell us what is going on.
    Mr. Brown. The structure, if I may, in part----
    Mr. Burton. Can you pull the mic a little closer and turn 
it up?
    Mr. Brown. Yes, sir, indeed. The interdiction command and 
control structure is a Department of Defense-led effort for 
detection and monitoring of aerial and maritime movement of 
drugs toward the United States.
    Mr. Burton. So it is a Defense Department----
    Mr. Brown. This is expressed through the Defense Department 
and through the JIATF that Admiral Belz represents.
    Mr. Burton. So the Defense Department has the primary 
responsibility, then?
    Mr. Brown. For detection and monitoring, yes, sir.
    Mr. Burton. Well, could Customs handle that? I mean is this 
thing--I mean, do we have several agencies that take various 
parts of the overflights to make sure that they are monitoring 
possible illegal transportation of drugs by air?
    Mr. Brown. The defense--the requirement to adequately 
manage this sort of geographic far-flung command and control 
structure is almost, it is almost essential that be the Defense 
Department.
    Mr. Burton. Do you parse out the planes that are doing this 
and the agencies that are doing this? Do you put that out into 
different agencies as far as areas of responsibility?
    Mr. Brown. Admiral Belz can perhaps walk you through the 
tasking structure and the forecast requirements. Customs and 
other participants commit their aircraft over time.
    Mr. Burton. Well, Customs, can you tell us, why is it we 
just cannot have one agency doing this so that we have one 
agency that is accountable so that we can get answers and get 
them in a quick and efficient way?
    Mr. Winwood. I have to borrow a mic, sir. This one is not 
working.
    Mr. Chairman, if I may, I will answer it this way: right 
now, we supply the information to JIATF East, which is under 
the command of the southern command the assets that we have 
available. That is to ensure that there is uniform standard 
coordination of all air activities in the source zone. So we 
meet quarterly, we lay out what assets we have available, what 
our flying hours are, what crew commitment we have and we 
supply the information to southern command via JIATF East, 
JIATF East then to have a central command coordinates the 
missions and notifies us where they want those crews to be and 
when, and as long as the aircraft are operative and we have the 
crews available, we fly those missions.
    Mr. Burton. If you had enough assets, I presume you could 
do the job in its entirety though, right?
    Mr. Winwood. If I may answer it this way, Mr. Chairman. Any 
organization--yes, if we have sufficient assets, one 
organization could supply the necessary flight hours and 
equipment to allow for the coordination out of the southern 
command to cover the missions necessary to give the air 
coverage and the radar coverage for this detecting and 
monitoring operation.
    Mr. Burton. I guess what I don't understand is why that 
isn't done. Why do we have the CIA doing part of it, the 
Defense Department doing part of it, Customs doing part of it 
and DEA. I mean it just looks like to me you have too many 
different agencies involved in something that should be a 
relatively simple operation. You know you are going to monitor 
the flights of planes that may be carrying illegal drugs. I 
mean, you guys are all here and willing to testify today, we 
have another agency that says, oh, we can't, we have to do 
these things in a private setting, and it is very confusing not 
only to Congress, but to the people out there who are paying 
attention to what is going on.
    Why is it that this is not consolidated and streamlined 
like you would in a business to make sure that you are running 
it efficiently and running it in a way that can be accountable?
    Mr. Winwood. Well, Mr. Chairman, I would just say this. 
That I think from the standpoint of command and control, and 
working out of the U.S. Southern Command through JIATF East, 
the coordination of the activity for at least our assets is 
coordinated under one command. To answer your question about 
the CIA, I can't respond.
    Mr. Burton. Maybe you should answer the question, then, of 
why is there several different agencies involved in this? One 
command is fine, but why do we have several different agencies 
that have different rules and regulations on whether or not 
they can give information to the Congress of the United States?
    Admiral Belz. Sir, I would suggest that the role of the 
Department of Defense in this mission is detection, monitoring, 
and tracking of both air and maritime assets. It is important 
to recognize that there is a broader set of the AOR than this 
particular incident. There are also, as was already mentioned, 
other assets in each of our countries that are not normally 
working within the regional framework that is our focus, 
because they are, in essence, country assets. And, as was 
already mentioned, those can be of a variety of agencies, 
including State Department assets perhaps involved in 
eradication. They can be, in fact, DEA assets, as Mr. Marshal 
indicated, doing some things.
    Mr. Burton. Or CIA?
    Admiral Belz. DEA, sir?
    Mr. Burton. Or CIA?
    Admiral Belz. Or CIA, yes, sir. And generally speaking, the 
assets that we have under our purview are U.S. Customs, U.S. 
Coast Guard and Department of Defense, both air and sea assets, 
and there are also radar infrastructures. So that is the piece 
that we bring to this mission. And with regard to other assets, 
some of those are doing country-specific operations.
    Mr. Burton. If they are under one--I don't want to belabor 
this, Mr. Chairman, but if they are under one command and 
control, it seems like that command and control organization, 
Defense or whatever it is, ought to be able to get answers for 
the Congress in the event of a tragedy like this and come up 
here in a fairly short period of time and give us an update on 
why it happened and how it happened and why it shouldn't happen 
again. In this particular case, the chairman and other members 
of the committee can't get those answers expeditiously, they 
have to kind of get it in pieces.
    Admiral Belz. Yes, sir, I would agree, but with regard to 
the specifics of the incident that we are speaking of today, I 
do think that what we know is what we know. We know what the 
procedures are and what they should have been.
    Mr. Burton. Well, who was in control of this particular 
mission?
    Mr. Crow. It is Randy Beers. Randy Beers is leading the 
team.
    Mr. Burton. Who was in control of the operation when this 
plane was shot down? Who was in control of the plane that was 
down there.
    Mr. Crow. The Peruvians control the operation.
    Mr. Burton. Wasn't there a CIA or a DEA--a plane that was 
monitoring those flights as well?
    Mr. Crow. I understand there was, yes, but----
    Mr. Burton. And who was in charge of that?
    Mr. Crow. Again, as we said earlier, that would have to be 
the Embassy, or the Ambassador, ultimately, since that is an 
asset that would be----
    Mr. Burton. So it is the State Department?
    Mr. Crow. Sorry?
    Mr. Burton. It was the Ambassador, you say?
    Mr. Crow. The Ambassador, the chief of missions.
    Mr. Burton. So the State Department Ambassador, he is a 
part of the State Department?
    Mr. Crow. That is correct. He is in charge of Embassy, 
which is----
    Mr. Burton. If the Defense Department is in charge of the 
overall operation that State can place down there, if they are 
the one that is coordinating all of this, why is it that we 
have difficulty finding out what happened if the CIA was the 
plane that was involved, ordered by the Ambassador to be up 
there?
    Mr. Crow. Well, as Admiral Belz mentioned, there are 
regional assets and country assets.
    Mr. Burton. I understand, but somebody is in charge, 
somebody is in control of that operation.
    Mr. Crow. But again I submit, that is precisely why this 
carefully picked, high-level team went down, to come up with 
these answers. I can conjecture, I have been stationed there, 
but I can't possibly take the place of somebody who went down 
deliberately to be able to satisfy questions like this. I can 
assure you that they are taking it most seriously.
    Mr. Burton. Thank you, Mr. Chairman.
    Mr. Souder. I want to again reiterate for the record that 
we invited the CIA to testify today. We had earlier asked for a 
briefing, did not receive it. They were willing to do a 
briefing yesterday, but having gone through in the Government 
Reform Committee with other classified information, that I 
feared at this point that, in fact, we would be told the things 
that were in the public record would were, in fact, classified 
and we would not be able to ask questions or sort some of these 
things through, it was better to do a classified hearing after 
this hearing, because of our past experience.
    Clearly, we want some answers. Clearly, this is very 
difficult, because as was carefully stated, the CIA has other 
missions other than just what they were doing, and how to 
untangle a trust from the American public that, in fact, we are 
being told the whole story regarding the drug mission without 
trying to deal with other things that are, in fact, classified 
is a very difficult process.
    But the American people want to know what the whole truth 
was so we can have confidence that if this is repeated, much 
like what we heard today, that we have not--and if I may just 
take a second before I yield to Ms. Schakowsky, my 
understanding is that even though JIATF East has, in Colombia 
and in Peru, coordination of assets that can be involved in the 
shoot-down policies and Customs has assets in those areas, 
there has been no shoot-down that you have provided information 
on; the goal has been force-down, but no shoot-down where 
anybody has even made the allegation that the procedures were 
not followed; is that correct?
    Admiral Belz. That is correct, sir. This is a historical 
over the history of the program. Certainly, since the new 
procedures were put in place, there has not been anything that 
has been alleged to have been that kind of mistake.
    Mr. Souder. And that is true for Customs as well?
    Mr. Winwood. Right.
    Mr. Souder. Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Let me just ask, gentlemen, if you would be willing to 
respond to written questions, because I doubt that all of the 
questions that I am going to ask are going to be able to be 
answered now. Does anybody object to that? Thank you.
    I thank Chairman Burton for pointing out the kind of 
confusion that I--and frustration that I am feeling right now 
as well, just our inability somehow to land on what was really 
going on in Peru and what exactly the U.S. involvement is.
    Am I correct in my understanding that there were no 
contract employees working for any of the agencies or direct 
personnel working for any of the agencies represented here that 
were involved in this incident, in gathering intelligence or 
sharing it? Am I correct?
    Mr. Marshall. With regard to my agency, DEA, you are 
correct, there were no contract employees working for DEA that 
were involved in this incident?
    Admiral Belz. That is correct, for JIATF East as well, 
ma'am.
    Ms. Schakowsky. So then given the response to the 
chairman's question that, in fact, it was the CIA, if I 
subtract correctly, the agencies that are involved in this kind 
of surveillance, that it had to be the CIA, because I can't 
even get that confirmed when I call the CIA, if they were the 
agency involved. Would anybody care to dispute that these were 
CIA contractors, or CIA personnel, whatever? You look like, Mr. 
Winwood, you want to say something?
    Mr. Winwood. No.
    Ms. Schakowsky. I wonder if anybody wants a lifeline, make 
a phone call.
    Mr. Winwood. I can only confirm to you, Congresswoman, that 
the U.S. Customs Service was not involved in this incident at 
all.
    Ms. Schakowsky. Well, let me ask you, Mr. Winwood----
    Mr. Souder. May I clarify one thing for the record? My 
understanding is they can't give a direct answer to your 
question because it is classified.
    Ms. Schakowsky. OK. Thank you. And I am certainly not, Mr. 
Chairman, trying to get--let me ask you, Mr. Winwood, does 
Customs contract out at all?
    Mr. Winwood. The only thing we contract for is, in some 
cases, maintenance of our aircraft when they are on the ground. 
We have no contract employees that pilot our aircraft, no 
enforcement officers in the Customs Service that are contract. 
They are all law enforcement officers employed by the Customs 
Service.
    Ms. Schakowsky. Was there a reason for that? Did you make a 
particular decision? I am trying to figure out why other--why 
anyone contracts out. Was there a reason why you would not?
    Mr. Winwood. Well, I can only go from the standpoint of our 
philosophy in the Customs Service. We are a law enforcement 
agency. We feel that we should have accountability and 
responsibility within our agency, that the people that work 
within this type of area should be law enforcement officers 
under the control and command of the agency, and that is just 
our philosophy.
    Ms. Schakowsky. So would you say that there is some 
sacrifice in accountability when we do contract out?
    Mr. Winwood. No, ma'am, that is not what I am saying. I 
simply said that we feel that having the proper accountability 
for the actions we take as law enforcement officers, that we 
feel that they should be employees of the Customs Service and 
that is what we tend to do.
    Ms. Schakowsky. And the others?
    Mr. Brown. I would add that it is--my personal view is that 
contract employees do not equal some suspicion of lack of 
control, or that it is inappropriate or just an ineffective way 
to do it. In fact, State Department's eradication programs, and 
I defer to Mr. Crow to give you the details, but those are, in 
large majority, conducted by contracted pilots, contracted 
support. So I think that there are a number--if the issue is 
broader use of contractors by U.S. departments and agencies 
involved in the drug effort in South America, then there would 
be other areas where contractors would be involved.
    Ms. Schakowsky. I understand. I am asking specifically 
about surveillance flights that could lead to shoot-downs or 
force-downs.
    Admiral Belz, let me ask you this. Don't we have U.S. 
personnel who are capable of providing these services? Why are 
we contracting--why might we contract out?
    Admiral Belz. I can't answer that question specifically, 
because it does not apply to our agency. Ma'am, JIATF East is 
made up of a composite of many organizations, certainly all of 
those represented at this table, and in some cases, I would 
concur with Mr. Brown's statement with regard to contractor 
use. I can say that for our part, generally speaking, the more 
operational the event is, then the greater the tendency is to 
see agency employees directly involved.
    Ms. Schakowsky. It was stated categorically that all of the 
shoot-downs and force-downs that we know about that, as far as 
we know, all procedures have been followed. Is there available 
to us, either through subpoenas or just through unclassified 
information, evidence that we have, in fact, asked that those 
procedures be followed?
    Mr. Winwood, it sounds as if you do that with Customs and 
that we could track how in each case where there is 
surveillance done that procedures were followed. Do we know 
that? Or someone said there were just no allegations that 
procedures were not followed.
    Do we proactively assure ourselves that procedures are 
followed, and can we as a committee look at that and assure 
ourselves?
    Admiral Belz. With regard to each air mission, each mission 
is thoroughly briefed and thoroughly debriefed. With regard to 
vessel assets at sea, certainly there are significant efforts 
that go forward to get ready for these deployments, depending 
on the length of them, and there certainly is routine reporting 
at the end of that, sometimes rather significant in length, and 
certainly any events that come up of interest, good and bad, we 
would get immediate feedback during the course of that. But 
each mission, each mission is, in fact, debriefed.
    Ms. Schakowsky. Thank you.
    Mr. Chairman, I would just like to second what Mr. Weldon 
said, that I hope that we will continue these hearings and that 
we will use our subpoena power to get at the bottom of the many 
questions that remain unanswered. I appreciate your willingness 
to answer some questions that I am going to submit in writing. 
Thank you very much.
    Mr. Souder. Thank you.
    Chairman Burton, did you have another question?
    Mr. Burton. I just have one or two real quick questions.
    Now, the State Department plane wasn't the one that shot, 
that were involved in this operation, Customs wasn't involved, 
DEA wasn't involved, and yet nobody can tell us CIA was 
involved, because it is classified. Why is that? Why is it 
classified? A plane was shot down, Americans were killed, it 
was a plane that was a civilian aircraft. Why is that 
classified? I don't understand that. This is not a national 
security issue. Why is that classified? Why is it you guys 
can't tell us that? Speak to me.
    Mr. Marshall. I think you would have to ask the CIA if, 
indeed, it was their operation, why that is classified.
    Mr. Burton. So if the CIA says, OK, it was our plane that 
shot this private plane down, and you guys are testifying from 
the other agencies and CIA says, this is classified, you guys 
can't say, it wasn't us, it was the CIA? You can't even say 
that? I tell you.
    Mr. Marshall. My understanding, sir, is that we cannot 
reveal classified information from another agency, only that--
--
    Mr. Burton. Well, we are going to find out why CIA says 
this is classified. This is crazy.
    Mr. Souder. Mr. Chairman, will you yield for a second?
    Mr. Burton. This is crazy.
    Mr. Souder. Mr. Crow, can I ask you a different question 
that has been troubling a lot of us. Clearly, much of this has 
gotten into the media. Could you explain briefly to us in a 
crisis like this, or at least a crisis of confidence, it is 
history, but the American public now is having doubts combined 
with other things about all of our antidrug efforts, which is 
totally unfair. How does the declassification process work in a 
situation where the State Department would say, there is a 
general public interest in this, and how did the information 
get into the media if it is classified?
    Mr. Crow. I don't know how it got in, but certainly what 
happened in Peru became immediately known because of the 
interest of the evangelical organization, obvious interest and 
concern in the event, and that catapulted it out into the open. 
I mean, it went from there. But again, Randy Beers is down 
there to find out what happened, what went wrong, and what can 
be done to ensure that it won't happen again. I mean if there 
is to be any kind of a positive end from a very tragic 
situation, that would be it. It is in all of our interests to 
come up with these answers.
    Mr. Souder. I think we have made it clear, and I am sure 
you will take back, that there is going to have to be a pretty 
compelling case why that report would be classified. And it is 
in all of our interests in trying to work through both fairness 
and those of us who work so hard to support the different 
efforts, it is very difficult for us to carry the ball here 
when we, in fact, have people asking difficult questions, 
mostly the majority of the questions today were coming from 
conservative Republicans who have been steadfast supporters of 
these efforts.
    Mr. Crow. I understand, and I want to clarify so that there 
is no doubt that these operations, whether they are in Colombia 
or Peru or another country are under the control of the host 
nation. No American aircraft shoots down or forces down other 
aircraft, and that is important, just to reiterate.
    Mr. Souder. We provided the information, but we did not 
pull the triggers and would not allow our----
    Mr. Crow. There are many ways that information is provided, 
I suppose most of them classified, but again, Intel-driven ops 
or maneuvers are the best way to avoid wasting your time.
    Mr. Souder. Well, we know that you have all been here 
several hours, we very much appreciate it. This was a difficult 
hearing for you all to come to, and I appreciate that very 
much. Some additional written questions may come, and I want to 
say also for the record, the reason this illustrates part of 
the reason in the command and control why we created the Office 
of National Drug Control Policy, it is also why that was moved 
up to cabinet level position, which hopefully it will stay, if 
I can put in a commercial, because, in fact, we have so many 
different agencies working with us, that somebody needs to be 
focused on a responsible effort to try to coordinate. Each of 
you have multiple missions in multiple places, and there needs 
to be one agency that at least is providing direct oversight of 
the drug issue.
    So thank you again for coming. If you have any additional 
statements you want to put in the record, you may, and we will 
have some additional questions for you.
    Panel 2 is now dismissed. If we could move to panel 3.
    Our third panel consists of private citizens who represent 
groups with an important interest in this issue. From the 
Center for International Policy we have Adam Isacson; from the 
National Business Aviation Association, we have Pete West; and 
from the National Defense Council Foundation we have Andy 
Messing. I welcome all of you here. You can remain standing, so 
that I may administer the oath.
    [Witnesses sworn.]
    Mr. Souder. Thank you for your patience. It has been a long 
afternoon. We will now start with Mr. Isacson.

 STATEMENTS OF ADAM ISACSON, CENTER FOR INTERNATIONAL POLICY; 
  PETE WEST, NATIONAL BUSINESS AVIATION ASSOCIATION; AND ANDY 
          MESSING, NATIONAL DEFENSE COUNCIL FOUNDATION

    Mr. Isacson. Chairman Souder and members of the 
subcommittee, it is a pleasure to appear before you today to 
testify about this important issue. Thank you for inviting me.
    For 5 years I have coordinated a program at the Center for 
International Policy that monitors the United States' 
relationship with the militaries of Latin America and the 
Caribbean. Arms transfers, the training of over 13,000 military 
and police each year, exercises and exchanges, bases, 
deployments.
    I have to admit that among all of these programs, the ``air 
bridge denial'' operation in Peru and Colombia was not getting 
much of our attention. It seemed less controversial. It was 
going after big-time drug criminals, not the peasants growing 
coca just to survive. It carried little risk of sucking us into 
an armed conflict. There was little risk of massive human 
rights violations, or so we thought, because we had been 
assured for years that strict rules of engagement were in 
place.
    So I was shocked and dismayed when I turned on the news a 
week ago Friday and saw what had happened to innocent 
civilians. I wish now that we researched this policy more, 
explored the risks more closely and tried to increase 
transparency over the way it was being carried out. We could 
have had a debate about this a long time ago.
    In the tragedy's aftermath, I must admit I have been 
disturbed by the U.S. Government's rush to place all of the 
blame on Peru. In the end the details might reveal that U.S. 
personnel objected to the use of deadly force that day. But the 
United States nonetheless shares the blame. While the Peruvian 
pilot pulled the trigger, he pulled the trigger of a gun 
provided by the United States while flying a plane provided by 
the United States. He was trained in these operations by the 
United States, and he was alerted to his target by intelligence 
provided by the United States.
    I might add, just to cite the New York Times, at least to 
get some sort of answers to the questions of the last panel, 
congressional officials say they are examining the role played 
by CIA contract employees who worked for the aviation 
development corporation of Montgomery, AL, just so it is in the 
record. That is last Saturday's Times.
    Peru was following a policy put in place by the United 
States as well. Over the years, Washington has handsomely 
rewarded Peru for pursuing its shoot-down policy with extreme 
zeal. Peru's regime and its military received aid, base 
upgrades and, perhaps just as important, political support from 
the United States. U.S. officials always mentioned the 
Peruvians' success, not just at hearings like this one, but in 
public appearances with officials in Peru, repeating the number 
of planes shot down like it was a wartime body count.
    But accidental shoot-downs are only one of the risks that 
this policy carries. What we are doing in the Andes deserves a 
lot more scrutiny than it is getting.
    First, our single-minded focus on drugs can severely 
distort these countries' political development. Peru is a 
perfect example. The United States worked very closely with the 
Alberto Fujimori in Peru, simply because it was a loyal partner 
in supply reduction efforts. The regime's cooperation earned it 
many open shows of U.S. support and quieted U.S. criticism of 
many abuses which created a lot of political space for 
President Fujimori and his sinister intelligence chief, 
Vladimiro Montesinos. I bet that if they had not been shooting 
down planes so enthusiastically, Fujimori would have long 
become a Japanese citizen and Montesinos a fugitive a long time 
before.
    As the Washington Post reported 2 days ago, ``The agreement 
that established U.S. cooperation with the Peruvian government 
was negotiated directly with Vladimiro Montesinos.'' The same 
Montesinos who cracked down on Peru's free press, who spied on 
Congress people, civic leaders, human rights activists and 
opposition parties, and who helped fill jails with political 
prisoners, while enriching himself enormously. The same 
Montesinos who worked throughout the 1980's as a lawyer 
defending large narcotraffickers. The same Montesinos who 
helped arrange arms transfers to Colombia's FARC guerillas.
    ``Montesinos used the drug interdiction agreement as a 
political weapon,'' the Post reports. ``He occasionally 
threatened to suspend the partnership when it appeared the U.S. 
Government was putting too much pressure on Fujimori's 
government.'' Even when Fujimori stole an electric outright, 
Washington swallowed hard, quieted its cruelest criticism and 
went ahead. The U.S. Ambassador attended Fujimori's 
inauguration last July.
    We ignored what should be a basic rule of counterdrug 
strategy. That if a partner nation is flouting the rule of law, 
then it is not going to be a reliable partner for long, no 
matter how many planes they shoot down or how many bases they 
allow us to use.
    A weak rule of law fosters corruption, a second policy 
risk. Again, we need look no further than Peru, where last 
month we saw the arrest of General Nicolas Hermoza, who had 
headed the armed forces from 1992 to 1998. General Hermoza is 
being charged with aiding and abetting drug traffickers, and he 
reportedly has $14.5 million in Swiss bank accounts. This 
reminds me of the celebrated case of General Gutierrez Rebollo, 
Mexico's drug czar who, it turns out, was cooperating with our 
efforts against one drug cartel while helping another cartel. 
To what extent has the United States been unwittingly helping 
corrupt officials in other countries?
    Beyond corruption, warning signs about the reliability of 
Peru's military have long been evident for anyone willing to 
look. The Peruvian armed forces' respect for democratic rule 
has been questionable at best, and it has serious problems with 
corruption and human rights abuse. For years, Peru's generals 
have been above the law. Why, then, should we expect them to 
strictly follow aircraft interdiction procedures?
    Third, U.S. anti-drug activities in the region are being 
carried out in a way that avoids scrutiny and oversight, as we 
have seen. While some secrecy is needed to protect U.S. 
personnel and to keep from alerting traffickers to activities, 
we need more information in order to be able to gauge the 
policy's effectiveness, to be alerted to the risks involved, to 
guarantee an informative debate and, let's face it, to prevent 
incidents like last Friday's shoot down from occurring ever 
began.
    Right now, we cannot say with confidence how much the 
United States is spending on its interdiction program in the 
Andes. We don't know how many U.S. military personnel and 
contractors are working in the region. We do know, though, that 
the U.S. military presence goes well beyond what most Americans 
would imagine. I have included a map in my written testimony 
indicating the many radar sites, forward operating locations, 
air facilities, training locations and other U.S. presences. I 
am sure it is incomplete, but it is remarkable how spread out 
our forces are, including some sites where illegal armed groups 
are quite active with little public discussion or knowledge. 
And this is the U.S. involvement we know about. There are 
entire agencies, especially intelligence agencies, whose 
operations and budgets are obscured by an informational black 
hole.
    Another information void surrounds what appears to be a 
large and rapidly growing role played by private contractors. 
Contractors were involved in the Peru incident, but this 
phenomenon has gotten more attention in Colombia. There you 
have at least six private U.S. corporations performing services 
that include flying drug-crop fumigation aircraft, ferrying 
battalions into combat, serving as mechanics and logistics 
personnel, performing bottom-up reviews of the armed forces, 
and gathering aerial intelligence. Some of these are rather 
delicate missions.
    In Colombia, three spray-plane pilots have died in crashes 
since 1997 and, in February of this year, contractor personnel 
working for the Virginia company DynCorp found themselves in a 
fire fight with FARC guerillas while performing a search-and-
rescue mission in the Caqueta department.
    Again, we know little more about the contractors. What 
companies are involved? What other roles are they playing? Are 
they taking on missions considered too dangerous for U.S. 
personnel? Are they getting too close to shooting wars in other 
countries? Are they bound by the same human rights standards 
that apply to military aid in the foreign aid budget? Are they 
consistently operating in line with U.S. policy goals? Who is 
making sure?
    These are very serious questions, but I can't come close to 
answering them today because contractor operations are taking 
place with almost no transparency. There is no annual report to 
Congress on contractor activities, and even some good 
investigative reporters have been able to uncover very little.
    This leads to lack of effective oversight. Lack of 
effective oversight leads to bizarre policy choices and 
incomprehensible decisions; for instance, putting contractors 
who don't speak Spanish on surveillance planes in Peru.
    Beyond all of these risks, perhaps the most tragic thing 
about the current policy is that the ends don't even justify 
the means. We hear all the time about how air bridge denial has 
reduced coca cultivation in Peru and Bolivia. But the gross 
amount of coca grown in the Andes hasn't budged at all. Coca 
cultivation in Colombia has made up the difference, and 
Colombia has lots of room to grow. I know the aggregate amount 
looks like it is decreasing since 1995, but if you measure from 
1990, the amount of hecterage grown has hardly budged, and it 
has gone down less since 1995, and demand for cocaine has gone 
down in the United States.
    The shoot-down policy has succeeded only in inconveniencing 
drug traffickers, annoying them a bit, forcing them to use 
routes other than air to get their product out. We haven't 
found anything approaching a defense against short-hop 
transshipment flights, and the use of rivers and oceans to move 
drugs.
    Moving coca cultivation elsewhere, enforcing traffickers to 
use other shipments methods are not policy successes. And they 
certainly don't justify a large military presence, a risky 
shoot-down policy, and close relations with corrupt and abusive 
governments. Let's hope that the April 20th incident signals 
the beginning of a change in our policy. There are many new 
directions we must urgently take.
    First, nobody thinks that narco traffickers have a right to 
fly illegal drugs around at will. But the shoot-down policy can 
be less aggressive without sacrificing much effectiveness. 
Since the policy already skirts the edges of international law 
and ignores due process, it makes sense to err on the side of 
caution.
    Mr. Souder. Mr. Isacson, you are a couple of minutes over, 
so if you can just summarize. I know you are almost done. We 
will put your whole statement in the record.
    Mr. Isacson. Second, let's put some limits on the use of 
contractors. Third, let's be more careful about who we are 
working with in the drug war. Fourth, let's focus much more on 
demand, on the need for treatment. Drug treatment has nowhere 
near been met in the United States. Finally, let's pay more 
attention to the reasons why poor people in the Andes are 
growing drug crops to begin with.
    I look forward to your questions.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Isacson follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.051
    
    [GRAPHIC] [TIFF OMITTED] T8829.052
    
    [GRAPHIC] [TIFF OMITTED] T8829.053
    
    [GRAPHIC] [TIFF OMITTED] T8829.054
    
    [GRAPHIC] [TIFF OMITTED] T8829.055
    
    [GRAPHIC] [TIFF OMITTED] T8829.056
    
    Mr. Souder. Mr. West.
    Mr. West. Thank you, Mr. Chairman. I thank Ms. Schakowsky 
and Chairman Burton. Thanks for asking me to testify and 
represent NBAA here.
    The National Business Aviation Association represents over 
6,400 member companies nationwide and some around the country, 
but mainly in this country, operating or involved with 8,700 
general aviation aircraft that are used for business 
transportation. NBAA member companies earn annual revenues 
collectively in excess of $5 trillion, about half the gross 
domestic product, and employ more than 19 million people 
worldwide. The Association's vision is to be a recognized 
effective force for enhancing safety, efficiency and acceptance 
of business aviation. Our mission is to serve the needs of the 
NBA member companies and the broader business aviation 
community. Clearly, safety is the first and foremost element of 
our vision and the most important need of our members and the 
broader community. This is true for all of aviation, and 
aviation safety is my focus in the context of today's 
deliberations.
    As much as this committee is to be commended for holding 
this hearing, it is unfortunate that we are compelled to gather 
here today because of the terrible tragedy experienced by the 
Bower family and Mr. Donaldson on Friday, April 21st. I am here 
simply to reassert the most important argument NBAA and others 
familiar with the dynamics of civil aviation made in the past 
and continue to make against the dangerous shoot-down approach 
to drug interdiction, the serious risk to innocent lives.
    Again, unfortunately, this argument was validated by the 
incident in Peru last month. At this point, on behalf of 
everyone associated with NBAA, and personally as a husband with 
an 8-year-old son and a 1-year-old baby daughter, I want Mr. 
Bowers and his son, Cory, as well as Mr. Donaldson, to know 
that our hearts and thoughts are with them.
    The fact that this matter is under intense investigation 
should be and is respected. It is comforting that the U.S. air 
interdiction efforts have reportedly been suspended in much, if 
not all of the region, and that related policies are being 
reexamined. Hopefully, that reexamination will allow this 
situation to be addressed in the context of what is rational 
and relevant to available technology, which I do not present 
myself as having any expertise in.
    Specifically, this panel is correct in exploring issues 
such as filing and verifying flight plans, especially in 
trafficking areas; suspect aircraft evaluation procedures, 
communications with suspect aircraft procedures and radio 
frequencies involved with that, and deadly force conditions. It 
seems absolutely essential that there be a review of overall 
management coordination of the program to ensure that there is 
thoughtful planning and strategy that incorporates appropriate 
and accountable safeguards, domestically and internationally. 
We would also encourage further review of the important 
rationale supporting the position of ICAO with regard to this 
issue and the civil aviation.
    NBAA commends those involved in the global fight against 
drugs for their commitment to this challenging and vital 
endeavor. However, this is a tragedy that could and should have 
been avoided. It could have been experienced by any other 
innocent people finding themselves in harm's way because of a 
policy that allows those involved in drug interdiction, albeit 
blinded by the bright light of good intentions, to ignore the 
need for caution and patience. It is especially sad when 
considering the differences between the capabilities of the 
military aircraft used in interdiction efforts and some of the 
small civilian aircraft being monitored and ``evaluated.''
    There is at least the capability to communicate by radio 
and, failing that, the ability to send clear messages visually 
with certain standard procedures.
    A colleague of mine, the Honorable Jeff Shane, former State 
Department and Transportation Department official, now a 
partner with Hogan & Hartson, recently shared some relevant 
information with me in an e-mail. He wrote, ``Sadly, precedent 
language can be found throughout the statements issued in 
opposition to the 1994 change in the U.S. law that facilitated 
the restoration of U.S. cooperation with Peru and Colombia, 
despite their newly adopted shoot-down policies. He provided 
the following: Senator Nancy Kasselbaum, September 14, 1994. 
``to sanction the use of deadly force against civilian aircraft 
as this legislation does is beyond ill-conceived. In a deadly 
game of chance, this legislation lets the United States help 
foreign governments shoot down civilian planes based on little 
more than an educated guess.''
    Senator Malcolm Wallop, September 14, 1994, ``I believe 
that abandoning our unconditional opposition to shooting down 
civil aircraft sends a very bad message, even if the rationale 
interdicting the flow of illicit drugs is a worthy one. By 
passing this law, we will encourage Colombia and Peru to become 
more aggressive in implementing their shoot-down policies. 
Accidents happen all too often without American engagement.''
    Airline Pilots Association President Randy Babbitt, and 
AFL-CIO the president, Lane Kirkland, in a letter to Secretary 
of State Warren Christopher, July 15, 1994, ``U.S. airlines 
operate in the vicinity of countries whose government's 
commitments to the rule of international law is suspect. We do 
not want such governments to be provided an opportunity to 
justify actions destructive to international civil aviation by 
citing a U.S. Government policy that legitimizes violence 
against civilian aircraft.''
    Mr. Souder. Mr. West, you are over time by about 2 minutes. 
You can summarize.
    Mr. West. I will summarize by saying, I won't give you any 
more quotes, I will just give you one last quote, the president 
of NBAA who said on June 30, 1994, ``the potential for tragic 
error resulting in the loss of innocent lives is too great to 
warrant the support for the shoot-down approach for drug 
interdiction. We are ready to help you all help all of us.''
    [The prepared statement of Mr. West follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.057
    
    [GRAPHIC] [TIFF OMITTED] T8829.058
    
    [GRAPHIC] [TIFF OMITTED] T8829.059
    
    Mr. Souder. Thank you. Major Messing.
    Major Messing. Mr. Chairman, I would first like to begin by 
thanking you and this esteemed committee for convening this 
hearing at an extremely important time. In recent years, 
support for the war on drugs has been dwindling and skepticism 
pervasive. Misinformation, fear and confusion is increasing to 
the point that people are reaching for unrealistic solutions 
like stopping or limiting supply side efforts, or legalization 
without understanding the harsh ramifications. For the first 
time in history, drug-induced deaths outnumber homicide in this 
country starting in 1998. This is not the time to cease U.S. 
efforts. This most recent misfortune involving missionaries 
over Peru is a tragic accident, but cannot be allowed to stop 
what has been an effective component of counter drug policy for 
the United States. As a result of United States and indigenous 
aerial interdiction programs over both Peru and Colombia, the 
narco trafficking air bridge has been significantly reduced. 
Breaking down this air bridge is just one part of this 
comprehensive counterdrug strategy, countertrafficking 
strategy.
    The other components include restricting the land bridge, 
the river bridges and the ocean bridge. These factors have been 
addressed by indigenous ground, air, Navy forces in the region 
with select U.S. military aid, like U.S. Army special forces, 
Marines, U.S. Coast Guard, and U.S. Navy working alongside 
them.
    I have just returned from my 15th fact-finding mission to 
Colombia since 1985 and the 30th such trip in the Andean region 
concentrating on Peru. While on this trip, I met with the 
director of DANTI, the anti-narcotics police in Colombia. 
According to him, the narcos are now being given the green 
light to empty the store houses and move the coca base by 
aircraft into Colombia. Given this, there has never been a 
greater urgency for continuation of U.S. aid to aerial 
interdiction programs.
    Since 1985, when the U.S. Congress approved the start of 
these programs, the Peruvian Air Force has positively 
identified and shot down 30 airplanes engaged in drug 
smuggling. Additionally, over a dozen planes have been seized 
while on the ground thanks to U.S. help. Moreover, U.S. 
intelligence in counternarcotics trafficking has helped the 
Colombian forces. The Colombian Air Force chief, General Hector 
Velasco states, ``About 20 of 48 suspected drug trafficking 
planes destroyed by the Colombian Air Force in their territory 
and air space during the past 3 years were flights first 
detected by U.S. authorities.'' U.S. efforts in Peru and 
Colombia alone have brought down nearly 100 aircraft shipping 
drugs that would have undoubtedly wound up on America's streets 
poisoning our children.
    It seems important to point out to the distinguished 
members of this committee that each ton of cocaine brought into 
the United States cost us approximately $1 billion of direct 
and indirect costs associated with health care, losses in 
business, crime in judicial systems costs, to name some of the 
problems. We are not even talking about the human costs, which 
are so very tragic.
    The United States must simultaneously help our neighbors to 
the south get a handle on supply side part of the equation 
while capitalizing on this reduced supply to gain tracks on the 
demand side effort in this country. So long as our streets are 
inundated with massive quantities of low-priced, highly 
purified drugs, the war on drugs will undoubtedly be hopeless. 
We can never win the war on drugs, but we can reduce it to its 
lowest manageable level. Less product means less use, less use 
means less devastation, and therefore, America's supply side 
efforts are important.
    Since 1995, the same year that this program was put into 
effect, cultivation of coca in both Peru and Bolivia has 
declined by approximately 70 percent. Some of this can be 
directly attributed to reducing the air bridge that we are 
discussing. This most recent incident in Peru, though, was 
simply a tragic accident. We will not know all the facts for 
some time, yet preliminary reports show that CIA contractors in 
the surveillance aircraft urged the Peruvians to slow down. 
Whatever the failure, the program of aerial interdiction has 
brought mainly praise from American agencies engaged in 
combating the drug trade and had tangible reductions in drug 
trafficking and cultivation. It is the failure of 
implementation, not policy, per se. As such, it is necessary 
that a proper investigation be conducted regarding this 
incident and finding out what went wrong, and surveillance 
flights must be continued as soon as possible.
    Last, I want to convey my condolences to the Bowers family 
and the family of the crew chief killed on a USC 130 aircraft 
that was also destroyed by the Peruvian Air Force a couple of 
years ago. I hope this doesn't reflect a sinister pattern by 
possibly malevolent elements in the Peruvian Government bent on 
reversing the present modus operandi. Our investigation will 
hopefully dispel this lingering notion. Thank you.
    [The prepared statement of Mr. Messing follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.060
    
    [GRAPHIC] [TIFF OMITTED] T8829.061
    
    [GRAPHIC] [TIFF OMITTED] T8829.062
    
    [GRAPHIC] [TIFF OMITTED] T8829.063
    
    Mr. Souder. I want to thank each of you again for your 
patience today.
    I have a couple of things I want to do here. One, given 
that we reraised the debate in 1994, I want to insert into the 
record the resolution from Mr. Schumer and Mr. Sensenbrenner, 
who is now chairman of the Judiciary Committee that expressed 
the sense of the House of Representatives should resume support 
of the operations for interdiction of illegal drug trafficking 
whereas illegal drugs, it goes through a whole series of why, 
the whereas clause basically says the Department of Defense and 
other departments and agencies of the United States should 
resume their former authorized practice of providing aid, 
information, and material support to locate, interdict and 
prevent the illegal drugs. I want to insert that into the 
record.
    Also, the bill from Mr. Torricelli and Mr. Lantos who head 
our human rights efforts and Mr. McCandless. Certainly I don't 
want to imply that I support anything that happened here 
because in fact, the bill is drafted to try to prohibit this 
from happening, but I think it is important for the record to 
have in what the Members of Congress, at that time in the 
Democratic majority, intended by putting this policy in.
    I also had a couple of questions for Mr. West. This is 
difficult, because as you can tell, I certainly believe that 
there should be a lot stricter standards, and I have generally 
supported most of the pilots' association different requests 
that have come to me, and obviously, there is risk in piloting 
in any case. Certainly, given that this is the only case we 
know for sure that any innocent pilot has been shot and that it 
is the only case, it appears that the procedures weren't 
followed, and I think we all agree the procedures weren't 
followed, and I think as more information comes out, that will 
become even more clear, but the fact is that both where we have 
the written testimony from the Aircraft Owners and Pilots 
Association, one of the things I have supported from them is 
the Back Country Landing Strip Access Act. Certainly, that puts 
more pilots at risk in some of these back country airstrips, 
yet that association is asking Congress to keep these open, 
even though it puts more pilots at risk.
    I would insert that into the record from the home page of 
the American Pilots Association. In the National Business 
Aviation Association, there is testimony on your home page from 
the President asking that the FAA not on the emergency 
certificate revocations that the person maintains the right to 
operate while the process is pending, which certainly puts 
people's lives at risk.
    In other words, there is a certain amount of risk you are 
going to have as a pilot. What we want to do is minimize that 
risk, but to maintain that other people's lives should not be 
put at risk when, in fact, there is a--compared to most of what 
you do, almost zero risk of an innocent pilot getting killed.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.064
    
    [GRAPHIC] [TIFF OMITTED] T8829.065
    
    [GRAPHIC] [TIFF OMITTED] T8829.066
    
    [GRAPHIC] [TIFF OMITTED] T8829.067
    
    [GRAPHIC] [TIFF OMITTED] T8829.068
    
    Mr. Souder. When you're backing other things in Congress 
that actually increase risk I think is a little bit of an 
inconsistent position. I would like to give you a chance to 
respond.
    Mr. West. That's an interesting approach you've taken.
    First of all, as you know, aviation has the best safety 
record of any form of transportation. Business aviation is as 
safe or safer than the airlines. So we have the safest safety 
record.
    I'm not specifically involved in the back country runways.
    The other issue that you raised about our president, Jack 
Alcott, on another risk-related matter, really, I don't see 
how--and please forgive me, but it's sort of apples and 
oranges. We're talking about a military aircraft not following 
procedures. Maybe you say it was the one time, but they 
didn't----
    Mr. Souder. But it is the only time.
    Mr. West. But so what?
    Mr. Souder. They should follow procedures.
    Mr. West. They should follow procedures. But the point is 
they were in a position----
    Mr. Souder. If there is one accident and things should be 
suspended--why wouldn't that be the case in these others?
    Mr. West. Well, the risk is always there. There was no 
effective radio communication. There was no procedures followed 
to go by and look in. It was just----
    Mr. Souder. We agree on that.
    Mr. West. Something was in error. Something was wrong. 
Something was amiss.
    Chairman Burton raised a question here that didn't get 
answered, so that could take us into a whole another arena. But 
I really do think that it's apples and oranges.
    Mr. Souder. You didn't propose trying to make the policy 
more fail-safe. You oppose the policy. Is that correct?
    Mr. West. Excuse me?
    Mr. Souder. You weren't proposing to make the policy more 
fail-safe. You oppose the policy per se.
    Mr. West. Actually, I was proposing--in terms of the shoot-
down policy, first, I was proposing that--first, I was saying 
that we are comfortable that there is a reexamination of this 
thing.
    Mr. Souder. Which I agree with.
    Mr. West. If you ask the Bowers and you ask Mr. Donaldson 
how they feel about that, I think they would appreciate it as 
well. I don't think we should ignore what happened, and I do 
think the reexamination will allow us to look more clearly at 
how we translate to our foreign partners or foreign 
relationships.
    Mr. Souder. So you don't oppose the policy necessarily, if 
we can address those questions.
    Mr. West. We opposed it in 1994 because there seemed to be 
an ignorance of the serious impact and risk that is put out for 
civil aviation operations, the type of possibilities that 
existed.
    I will relay to you a conversation I had with former 
Senator Sam Nunn. I'm from Georgia, and he was from Georgia. I 
used to head up legislative affairs for Delta Airlines, but I 
had joined Business Aviation. In 1994, we talked about the 
shoot-down.
    He was a very vigorous proponent for drug interdiction, but 
he focused me on the specific issue of the military aircraft 
versus the smaller civil aviation aircraft. He emphasized the 
incredible risk that some Member of Congress flying or running 
a general aviation aircraft, a dentist and his or her family, 
missionaries like that experienced in Peru--he said, this can 
happen, and we have to be very, very careful that we understand 
the differences between the capabilities of these two types of 
aircraft.
    He almost tongue in cheek said, you know, some of these 
aircraft are so advanced they could go to Europe and back 
before the private pilot could get from the Bahamas back to the 
country. They're so effective, and they're very, very 
dangerous. He said, it's very dangerous territory.
    I trusted his judgment then, and I trust his observations 
now.
    Mr. Souder. Obviously, he--go ahead and finish.
    Mr. West. He obviously what?
    Mr. Souder. Go ahead and finish your comments.
    Mr. West. I appreciate--we appreciate the battle against 
drugs. We appreciate what risk that drugs have to people's 
lives. I'm just saying a rational and responsible reexamination 
of this issue seems of the utmost importance because, yes, 
lives were lost; and I don't look at things and just say, well, 
that's just one time.
    Mr. Souder. You know, I appreciate the gentleman's 
comments, but I want to point again for record that it passed, 
signed clearly, that we, in fact, only know of one case where 
innocent people were shot down. We know other pilots have lost 
their lives in many ways, none of which I defend, but that 
there are risks whenever you institute a policy. And your 
association and the other airline pilots association are asking 
Congress to actually make some risk expanded and that it seems 
like an inconsistent position. However, a reevaluation is 
absolutely essential, and we're trying to address that question 
and put in as many safeguards as possible.
    Mr. West. Can I just say one thing? I appreciate our 
agreement--our aggressive agreement on reevaluation, 
reexamination. I'm just saying the apples and oranges are guns, 
shooting, fighting aircraft versus risk inherent in the growth 
of the society and the culture and how we do things.
    Mr. Souder. Let me say for the record you said twice it's 
apples and oranges. It is not apples and oranges. Risks in 
shorter landing strips where there are trees on runways and the 
runway may not be kept up as other runways are risks also that 
are just as fatal to pilots when there's an error.
    When the FCC says a pilot is unqualified to fly and you 
want to have a stay of whether that was an emergency 
qualification, the ruling on the pilot could be argued is a 
direct safety question.
    Now, I tend to support the airline owners, but don't come 
to us with double standards. These are apples and apples. We 
disagree on a point here, but I think it's apples, apples.
    Congresswoman Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Mr. West, I am assuming that none of the six private 
companies that are conducting operations in the Andean region 
are members of the National Business Aviation Association.
    Mr. West. I actually checked. First of all, the record of 
NBAA member companies throughout our 53-year history is that 
there is no evidence of any member company ever being involved 
in drug trafficking.
    Second, I looked into our membership----
    Ms. Schakowsky. Not drug trafficking. You mean drug 
surveillance or drug trafficking.
    Mr. West. Trafficking.
    Ms. Schakowsky. Oh, you did mean trafficking.
    Mr. West. I am not aware--we only have one member company 
in Peru, and it is an aviation services company. It is not a 
company that is involved with surveillance.
    Ms. Schakowsky. OK. Did you check like DynCorps, any of the 
U.S. companies?
    Mr. West. I would love to have a list of those six 
companies and check my membership list.
    Ms. Schakowsky. Maybe you could provide us some 
information.
    Mr. West. I would love to contact them if they are members.
    Ms. Schakowsky. I also will say I have less confidence, 
although I am certainly wanting to look at the record of the 
shoot-downs. I am certain that there weren't any other American 
civilians that were shot down, but I think it would bear 
looking at some of the records to make sure that there were no 
other civilians that were mistakenly shot down. I just feel 
somewhat less confident that that's the case without 
scrutinizing some of the records.
    Mr. Isacson, you seem to question the assertion that the 
policies that we've been employing in interdiction are 
successful, that this 17 percent reduction in production has 
resulted somehow in helping us in the United States or that--I 
just wonder if you would just expand a bit on the success of 
our missions in Central--in South America.
    Mr. Isacson. Sure. If you look, as in the last panel, we 
saw a bar graph showing the aggregate amount of coca bean 
growing decreasing since 1995. If you were to add the years 
1988 or 1989 or so, you would see that it had went up during 
the first half of the 1990's, and it has just gone back to 
early 1990's levels. We've had no net reduction since the early 
1990's. What reduction we have had is really due to the fact 
that less Americans are buying cocaine than were 8, 9, 10 years 
ago. The demand for crack especially has gone way down. That 
explains that.
    What we have seen as a result of interdiction efforts, yes, 
it does certainly affect the way the drug trade gets carried 
out, but what we have instead is sort of a game of hopscotch 
where we have moved from Peru and Bolivia being the main 
producing countries to the Guaviare area in Central Colombia 
being the epicenter of coca growing and then to Putamayo 
Colombia after we started spraying in Guaviare.
    Where are we going to go next? It's anybody's guess now 
that Plan Colombia has started. But chances are there are 
about--there are any number of places where the coca trade can 
move in the Amazon basin.
    Ms. Schakowsky. How do you account for the drop in cocaine 
use if not this eradication program?
    Mr. Isacson. I am not really an expert on this. I am more 
of a foreign policy focus. But what I have been told and what I 
have read is a lot of it owes to the fact that, yes, the crack 
plague has ebbed. There is no new wave of crack addicts on the 
level of what we saw in the late 1980's early 1990's. It's more 
of a shrift in user trends. Heroin has gone up somewhat, while 
coca has gone down. And, yes, education and treatment have had 
some effect.
    Ms. Schakowsky. Do we have evidence that the coca growing 
is just moving around?
    Mr. Isacson. Certainly all you need to do is even look at 
the last chart in that they showed in the last panel showing by 
the three major coca-producing countries whereas as recently as 
1995 most coca was grown in Peru, now most is grown in 
Colombia. Looking in Colombia you can see that it's moved 
within Colombia as well, yes.
    Ms. Schakowsky. I wondered also if you could elaborate--
I've been focusing on legislation on an increase on the 
contractor issue. I'm wondering if you could elaborate a little 
bit about your concerns about that.
    Mr. Isacson. My concerns mainly deal right now with 
accountability. I just don't know enough. There is no access to 
information. I can't even name those six companies in Colombia. 
I just got that number from an article in the Miami Herald. You 
can't tell what the companies are; you can't tell what missions 
they're carrying out. But that, of course, led the imagination 
to wander a bit. What could these guys be doing? How close are 
they getting to combat?
    I would not have dreamed for that February incident in 
Caqueta that we have been involved in firefights or carrying M-
16s as they were in Caqueta. Are they involved with units that 
violate human rights regularly? Are they involved with para 
militaries? There is any number of questions that we just 
cannot answer because we can't get even the most basic 
information about them right now.
    Ms. Schakowsky. Thank you.
    Mr. Souder. Congressman Burton.
    Mr. Burton. Thank you, Mr. Chairman. I just have two real 
quick questions.
    First of all, I share your concern about lack of 
information, especially after having listened to that last 
panel. Let me start with you, Major Messing. You say that 
aerial interdiction should start again as soon as possible. 
Obviously, I guess it's because drugs are pouring in through 
the air during this hiatus. Is that the main reason?
    Mr. Messing. That's my impression. You have to keep 
concerted pressure on all four avenues of approach, so to 
speak. Right now, there is a void; and obviously they'll pick 
up on that and move product through.
    Mr. Burton. And I presume right now that the aerial 
surveillance has been curtailed around Colombia and Peru.
    Mr. Messing. That's my understanding. And the indigenous 
forces in the region, the Peruvians and the Colombians, don't 
have the complete capability to bridge that gap, so to speak.
    Mr. Burton. Mr. Isacson, did you mention that out at 
Maxwell Air Force Base there's a private contacting company 
operating this, involved in the----
    Mr. Isacson. Yes, I got that in from the few newspaper 
articles that have appeared since Saturday in major papers.
    Mr. Burton. Is that operating in Montgomery, AL?
    Mr. Isacson. Aviation Development Corp., yes, at Maxwell 
Air Force Base.
    Mr. Burton. I didn't see that article. Did it say that 
was--was that the contractor that was flying that surveillance 
plane down there when this plane was shot down?
    Mr. Isacson. According to this and a few other articles, 
yes.
    Mr. Burton. And it was a private contractor hired by the 
CIA?
    Mr. Isacson. According to this, yes. I have never heard of 
this company myself.
    Mr. Burton. We'll check into that further tomorrow.
    Thank you, Mr. Chairman.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. First of all, I want to thank you gentlemen 
for being here. Did you all hear the testimony of the previous 
panel?
    Mr. Isacson. No, I didn't.
    Mr. Cummings. You heard it?
    Mr. Messing. Yes, sir.
    Mr. Cummings. Yes, sir.
    Mr. Messing. I did.
    Mr. West. I got here late.
    Mr. Messing. I have been here since 1:30.
    Mr. Cummings. Was there anything that surprised you in any 
of that testimony?
    Mr. Messing. I share Congressman--Chairman Burton's 
concerns about a lack of centralized control. I think this is a 
problem in the drug war. I share the gentle Congresswoman's 
concerns with regard to contractors. I'm a right of center 
organization; and my colleague, who is a left of center 
organization, you know, he articulated quite accurately and 
correctly some of the problems that we're having with this 
contractor phenomenon.
    I don't know if you're aware, Congresswoman, but Senator 
Byrd put a limit on contractors on the Senate side of 300. I 
was one of the architects that put the cap on the military 
because I was concerned about the military-industrial complex 
fueling this conflict. It's a 500 limit in Colombia for 
military and 300 for contractors. I think 300 for contractors 
is a little high. I've talked to the American Ambassador 
Patterson, who is an incredibly competent and skillful 
diplomat, with regard to my concerns.
    I think that it's something that has to be examined. I 
think that any time you don't--as a Vietnam veteran and also a 
guy who was in Grenada and also in El Salvador as a reservist, 
I have to tell you that any time you don't explain to the 
American people in detail what the heck you're doing, you're 
making a major mistake. Any time you're trying to slip things 
under the carpet, like these contractors, you're making a major 
mistake.
    One of the comments was, it's cheaper. Well, you don't 
``cheap'' on something like this. Because this involves a major 
impact on our society, on our social, political, economic and 
security aspects of our society.
    I have worked in homeless shelters as a volunteer for a 
year and a half twice a week. I have seen one-third of the 
people coming in there that have ruined their lives on drugs. I 
have held crack babies. I have gone on drug raids with the San 
Diego police, with the Fairfax police, the Los Vegas police. I 
have gone on drug raids with the Colombian National Police. I 
have to tell you that at every level you have to have concerted 
pressure; and any time you take off a pressure point here or 
pressure point there, the drug dealers exploit it to the max.
    This was a very unfortunate incident. It was unfortunate in 
four ways--innocent people, Americans, a beautiful family, and 
Christian missionaries. But, you know, we can't throw the baby 
out with the bath water with regard to policy. It has stopped--
as the testimony you heard in the previous two panels, it 
stopped all kinds of tons of cocaine from coming up.
    Now one of the reasons we've had a diminishing level of 
some cocaine use, as pointed out, is we've had increased 
methamphetamine production in our own United States. In 
addition, the Chinese are gearing up in a massive way to 
methamphetamine production. The Filipinos who I am in contact 
with, Filipino intelligence services, who, by the way, are one 
of the best--one of the top 10 intelligence services in the 
world, have indicated to me that methamphetamine production 
coming out of China is going to come in waves like we just 
don't have any idea. And methamphetamines will become drugs of 
choice in the 2000's.
    Back in 1990 I predicted to the DEA that Mexican heroin and 
heroin would become drug of choice in the 1990's with a guy 
named Bruce Hazelwood. We wrote a report on it, which is on our 
Web site at www.NDCF.org. That report predicted heroin becoming 
the drug of choice in the latter part of the 1990's, which it 
did.
    When I heard the DEA guy make his comments I sort of rolled 
my eyes, because they've always been consistently wrong about 
predicting trends. I don't know why that is. They get a lot of 
money. They should be able to predict it. But we're going to 
have a methamphetamine problem that's going to be out of this 
world here very shortly.
    But getting back to the subject at hand, I don't want to 
see us wind up throwing out the baby with the bath water. I 
hope that this investigative committee winds up determining 
some of the problems that my colleague over here to my left, I 
might point out, pointed out with regard to some of the 
permeations and corruptions that have occurred with people that 
we supposedly are cooperating with. We better not be naive 
about this and think that everybody we work with is our friend. 
We better work with caution.
    I hope that answers your question.
    Mr. Cummings. Thank you very much.
    Ms. Schakowsky. I would just like to say, Major Messing, 
while I agree with much of what you said, including the drugs 
of choice changing, I think in some ways that--I would see that 
as proving my concern that if we're engaged in interdiction on 
cocaine then does that really--is that really going to end 
drug--substance abuse and drug addiction? That I think it 
underscores the need that we better deal with demand or we're 
just going to see the drug of choice keep changing and we're 
going to keep sending military personnel, over a million here 
and there around the world, that we have got to seriously 
address the demand problem.
    Mr. Messing. Well, ma'am, demand is important. It's like a 
juggler: You throw up two balls, one is demand and one is 
supply. As a juggler, you got to have the same equal and 
consistent effort on both of them.
    For instance, on the demand side, nobody has ever mentioned 
that the acreage that he's talking about, 900,000 acres of 
pristine jungle, the lungs of the world, and tens of millions 
of animals have been killed and the headwaters of the Amazon 
River have been polluted because of the craven requirements of 
people in our own country and other parts of the world that 
have been involved ingesting this illicit and stupid drug.
    But the point is that demand side issues cannot get 
traction if there's an abundance, an overabundance, if you 
will, of product. So any time we can place pressure on pushing 
down product, like I said in my testimony, less product means 
less use, less use means less devastation. So that's why we 
have to constantly be pushing against the bad guys, so to 
speak.
    Mr. Souder. Thank you very much.
    I want to reiterate your last point, too. You can see from 
the air the precursor chemicals in the feeding streams into the 
Amazon, and you can see places where there are no birds at this 
point. We often don't hear that part of the debate.
    Mr. Messing. Greenhouse effect, pollution is phenomenal, 
because it's a slash-and-burn policy by drug dealers.
    Mr. Souder. I also want to reiterate that the common story 
today is that none of us want to see any pilot, any 
missionaries, any Congressman, for that matter, shot down; and 
we want to make sure that if the policy is reinstituted that 
there are additional safeguards. We also don't want the people 
of Peru and Colombia to be shot down either.
    This isn't just a question of innocent people from America. 
It has to be a worldwide phenomena.
    I also want to point out that synthetic drugs clearly are a 
phenomena that Congress is seeing across the country. We're 
trying to deal with the methamphetamine and Ecstasy and other 
drugs. Hopefully, Congressman Cummings as well as myself at--
the next international narcotics conference is next spring in 
Japan, and the focus is going to be methamphetamines and 
synthetic. Europe is facing it, and the United States and other 
countries as well.
    The last thing I would like to do for the record is to 
insert an AP story that ran yesterday. A missionary says the 
United States should quickly resume drug surveillance flights 
suspended after his wife and adopted baby were killed in Peru 
when they were mistaken for drug smugglers and shot down. Jim 
Bowers, who survived unharmed when their small plane crash 
landed after being fired upon by a Peruvian war plane April 
20th, said Monday he has expressed that view in a call to 
Secretary of State Colin Powell's office. To say there needs to 
be an entire review of the whole program and suspend it and to 
let the drug people continue their business as usual is wrong. 
He said clearly they need to find out, but he believes it was 
an error.
    Obviously, we're going to have an extended debate and 
reiterate again, regardless of where you stand on this issue, 
clearly the policy needs to be reviewed. We need to have this 
in public. We need to have the debate in public. But it is not 
clear-cut what the end answer should be.
    With that, I thank the witnesses today. I thank all of our 
panelists. Look forward to our next hearing on the subject.
    With that, the hearing stands adjourned.
    [Whereupon, at 4:55 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T8829.069

[GRAPHIC] [TIFF OMITTED] T8829.070

[GRAPHIC] [TIFF OMITTED] T8829.071

[GRAPHIC] [TIFF OMITTED] T8829.072

[GRAPHIC] [TIFF OMITTED] T8829.073

[GRAPHIC] [TIFF OMITTED] T8829.074

[GRAPHIC] [TIFF OMITTED] T8829.075

[GRAPHIC] [TIFF OMITTED] T8829.076

                                   - 

</pre></body></html>
